App. 1
APPENDIX A
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
KETA GAS & OIL COMPANY,
A PENNSYLVANIA CORPORATION, FORMERLY KETA
REALTY COMPANY
v.
THOMAS E. PROCTOR,
JAMES H. PROCTOR,
THOMAS E. PROCTOR, JR.,
ANNE PROCTOR RICE, EMILY
PROCTOR MANDELL, LYDIA
W. THACHER, AUGUSTA
PROCTOR, ELLEN O. PROCTOR, SARAH JOSLIN, ABEL H.
PROCTOR AND MASSACHUSETTS GENERAL HOSPITAL,
HEIRS LEGATEES AND DEVISEES UNDER THE WILL OF
THOMAS E. PROCTOR, AND
ALL PERSONS CLAIMING
UNDER OR THROUGH THE
ABOVE, AND BRINKER
HUNTING CLUB, A NONPROFIT CORPORATION
v.
ANADARKO E&P ONSHORE,
LLC, SOUTHWESTERN ENERGY PRODUCTION COMPANY, AND INTERNATIONAL
DEVELOPMENT CORPORATION

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 125 MAL 2020
Petition for
Allowance of
Appeal from the
Order of the
Superior Court

App. 2
PETITION OF: TRUSTEES OF
THE THOMAS E. PROCTOR
HEIRS TRUST AND TRUSTEES OF THE MARGARET
O.F. PROCTOR TRUST

:
:
:
:
:

ORDER
PER CURIAM
AND NOW, this 22nd day of September, 2020,
the Petition for Allowance of Appeal is DENIED. The
Application for Leave to ﬁle Post-Submission Communication is DENIED.

App. 3
APPENDIX B
NON-PRECEDENTIAL DECISION –
SEE SUPERIOR COURT I.O.P. 65.37
KETA GAS & OIL COMPANY,
A PENNSYLVANIA CORPORATION, FORMERLY KETA
REALTY COMPANY
v.
THOMAS E. PROCTOR,
JAMES H. PROCTOR,
THOMAS E. PROCTOR, JR.,
ANNE PROCTOR RICE, EMILY
PROCTOR MANDELL, LYDIA
W. THACHER, AUGUSTA
PROCTOR, ELLEN O. PROCTOR, SARAH JOSLIN, ABEL H.
PROCTOR AND MASSACHUSETTS GENERAL HOSPITAL,
HEIRS LEGATEES AND DEVISEES UNDER THE WILL OF
THOMAS E. PROCTOR, AND
ALL PERSONS CLAIMING
UNDER OR THROUGH THE
ABOVE, AND BRINKER
HUNTING CLUB, A NONPROFIT CORPORATION
v.
ANADARKO E&P ONSHORE,
LLC, SOUTHWESTERN ENERGY PRODUCTION COMPANY, AND INTERNATIONAL
DEVELOPMENT CORPORATION

:
IN THE
:
SUPERIOR
:
COURT OF
: PENNSYLVANIA
:
:
: No. 1975 MDA 2018
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

App. 4
APPEAL OF: TRUSTEES OF
THE THOMAS E. PROCTOR
HEIRS TRUST AND TRUSTEES OF THE MARGARET
O.F. PROCTOR TRUST

:
:
:
:
:

Appeal from the Order Entered October 23, 2018
In the Court of Common Pleas of Lycoming County
Civil Division at No(s): CV-1950-000571-QT
BEFORE: GANTMAN, P.J.E., McLAUGHLIN, J., and
FORD ELLIOTT, P.J.E.
MEMORANDUM BY McLAUGHLIN, J.:
FILED DECEMBER 06, 2019
Appellants, Trustees of the Thomas E. Proctor
Trust and Trustees of the Margaret O.F. Proctor Trust
(“Proctor”) appeal the trial court’s order granting the
motions for summary judgment ﬁled by Southwestern
Energy Production Company (“SWN”), International
Development Corporation (“IDC”), and Anadarko E & P
Onshore LLC (“Anadarko”) (collectively “Appellees”).
We afﬁrm.
While the factual and procedural history of this
case is extensive, we instantly provide the following
relevant summary as gleaned from the trial court’s
opinion and the certiﬁed record. In 1894, the Proctor
family owned the surface and subsurface rights to vast
amounts of unseated lands in Pennsylvania including
the parcels identiﬁed as James Strawbridge Warrant
5665 (“W5665”), approximately 948 acres and James

App. 5
Strawbridge Warrant 5667 (“W5667”), approximately
1096 acres (collectively referred to as “the Warrants”).
In 1894, Thomas Proctor and his wife conveyed
their surface rights to the Warrants to Elk Tanning
Company (“Elk”) but reserved the subsurface rights
for themselves. In 1903, Elk conveyed the surface
rights to the Warrants to Central PA Lumber Company
(“CPLC”). In 1908, Calvin H. McCauley, Jr. purchased
the Warrants at a tax sale (“1908 tax sale”), only to
turn around and sell both parcels back to CPLC in
1910. In 1913, CPLC conveyed its surface interest in
W5667 to Four Mile Fish and Game Club (“Four Mile
deed”) but purported to reserve the subsurface rights
to Proctor. In 1921, CPLC conveyed its surface interest
in W5665 to Lincoln Hunting and Fishing club but also
purported to reserve the subsurface rights to Proctor
(“Lincoln deed”). For purposes of the instant case, the
speciﬁc language at issue in the Four Mile and Lincoln
deeds is as follows:
EXCEPTING and RESERVING, NEVERTHELESS, unto Thomas E. Proctor his heirs
and assigns, All the natural gas, coal, coal oil,
petroleum, marble and all minerals of every
kind and character, in, upon or under the said
lands hereinbefore mentioned and described,
and every part thereof or which may at any
time hereinafter be discovered . . . The abovementioned minerals and mineral rights to be
excepted and reserved as fully as said minerals and mineral rights were excepted and reserved in deed from Thomas E. Proctor and
wife above recited.

App. 6
In 1942, CPLC purported to convey the subsurface
rights to the Warrants, along with other parcels, by
quitclaim deed, to Keystone Tanning & Glue Company,
who thereafter conveyed the same rights to Keta Realty Company (“Keta”), in 1950. Lincoln conveyed its
surface rights to W5665 to Brinker Hunting Club
(“Brinker”) in 1948.
In 1950, Keta ﬁled a complaint to quiet title to the
subsurface rights to the Warrants. In the 1950 complaint, Keta recited the chain of title to the Warrants,
complete with references to the relevant deeds. Proctor
and Brinker were among the named defendants to the
complaint. The sheriff properly served Brinker with
the complaint, but Proctor was served via publication
because Keta claimed to be unable to identify or locate
the Proctor heirs. In any event, neither Proctor nor
Brinker responded, and in March 1951 the court entered a default judgment (“1951 Default Judgment”)
declaring, inter alia, Keta the owner of all subsurface
rights to the Warrants. Successors in interest to Keta
include Appellees. Trout Run Hunting and Fishing
Club is the successor in interest to Brinker.
After the 1951 Default Judgment, the next judicial
activity in this case occurred in 2014 and 2015 when
Proctor’s various heirs ﬁled petitions to strike/open the
1951 Default Judgment. The trial court denied Proctor’s petition to strike, ﬁnding that Keta’s 1950 complaint to quiet title was not deﬁcient in regard to its
description of the land and chain of title and that a
defect did not appear on the face of the record. However, the trial court did issue an order to open the 1951

App. 7
Default Judgment in 2015, ﬁnding that Keta had engaged in fraud in 1950 in order to obtain the judgment
by claiming to be unaware of the Proctor heirs’ whereabouts. In essence, the court credited the allegation
that Keta engaged in unsuccessful negotiations with
Proctor to extinguish Proctor’s reserved subsurface
rights and thereafter ﬁled the quiet title complaint regarding the same rights.
After the trial court opened the 1951 Default
Judgment in 2015, Appellees ﬁled the instant motions
for summary judgment averring that the 1951 Default
Judgment should remain in place, while Proctor filed
a response, raising a New Matter, seeking to reverse
the 1951 Default Judgment. Finding that the 1908 tax
sale extinguished Proctor’s subsurface rights, the trial
court, via the October 23, 2018 order, granted summary
judgment in favor of Appellees, thereby afﬁrming the
1951 Default Judgment.1
Proctor ﬁled the instant timely appeal and raised
the following issues for our review:
1.

1

Did the Court err in striking [Proctor’s] additional facts and evidence, when Pennsylvania
Civil Rule 1035.3(b) expressly provides that

We note that after the trial court opened the 1951 Default
Judgment in 2015, Trout Run ﬁled a separate motion to strike the
judgment in 2018. After hearing argument on the matter, the trial
court dismissed Trout Run’s motion in the October 23, 2018 order
and memorandum opinion here at issue. Trout Run has also ﬁled
an appeal from the trial court’s October 23, 2018 order, which is
currently before this Court, listed under 1939 MDA 2018.

App. 8
the non-moving party “may supplement the
record” in responding to summary judgment?
2.

Did the Court err in granting summary judgment, when the evidence showed that the
property at issue was in fact “seated,” rendering an “unseated land” tax sale void?

3.

Did the Court err in granting summary judgment,
when the evidence showed that previouslysevered subsurface interests were reported to
county commissioners pursuant to the Act of
March 28, 1806, P.L. 644, such that a tax sale
would not convey the subsurface?

4.

Did the Court err in granting summary judgment, when the evidence showed that the purported tax sale purchaser was an agent of the
defaulting taxpayer, rendering the “purchase”
a de facto redemption that restored the status
quo ante?

5.

Did the Court err in granting summary judgment, because appellees are bound by express
reservations of subsurface rights in the deeds
through which they claim title?

6.

If the defaulting taxpayer failed to accurately
report its interest in the property at issue for
taxation, or pay taxes when due, do these failures estop it and its successors from beneﬁting from these defaults?

7.

Where the identities and whereabouts of
property owners were known to taxing authorities, did an ensuing tax sale undertaken
with no effort at individual notice violate

App. 9
the owners’ Constitutional due process
rights?
Proctor’s Br. at 3-4.
In their ﬁrst issue, Proctor contends that the trial
court erred by refusing to consider the information
Proctor provided via its ﬁling entitled “new matter,”
ﬁled in response to Appellees’ motions for summary
judgment. Proctor contends that the title “new matter”
was “inconsequential” and instead the trial court
should have considered this ﬁling as Proctor’s effort to
supplement the record, as permitted under Pennsylvania Rule of Civil Procedure 1035.3(b). As such, Proctor
argues that the trial court committed “reversible error”
by electing to not consider the ﬁling. We conclude that
Proctor’s argument is unavailing.
Pa.R.Civ.P. 1030(a) provides that litigants may
present certain afﬁrmative defenses via a responsive
pleading under the heading “New Matter.” Whereas
Pa.R.Civ.P. 1035.3(b) provides litigants with the opportunity to oppose a motion by supplementing the record.
Here, the trial court aptly noted that Proctor’s ﬁling,
entitled “New Matter,” ﬁled in response to Appellees’
summary judgment motions, was not in accordance
with the appropriate Pennsylvania Rule of Civil Procedure. Nevertheless, the trial court proceeded to consider the material Proctor presented under New
Matter. Accordingly, even if the trial court should
have considered Proctor’s filing as a supplement to
the record pursuant to Pa.R.Civ.P. 1035.3(b), regardless of the filling’s nomenclature, the trial court did

App. 10
incorporate Proctor’s supplemental ﬁling into its review and decision. Therefore, Proctor’s claim that the
trial court failed to properly consider their ﬁling pursuant to Pa.R.Civ.P, 1035.3(b) is of no moment.
In its next four issues, Proctor’s overarching contention is that the trial court erred by granting summary judgment in favor of Appellees because genuine
issues of material fact remained outstanding regarding the 1908 tax sale, which the trial court found divested Proctor of its subsurface rights in the Warrants.
The entry of summary judgment is appropriate “where
the record demonstrates that there remain no genuine
issues of material fact, and . . . the moving party is entitled to judgment as a matter of law.” Chepkevich v.
Hidden Valley Resort, L.P., 2 A.3d 1174, 1182 (Pa.
2010). As review of summary judgment presents a
question of law, our standard of review is de novo and
our scope of review is plenary. Id.
The seminal case in regards to the 1908 tax sale
is Herder Spring Hunting Club v. Keller, 143 A.3d
358 (Pa. 2016). There, the Pennsylvania Supreme
Court provided comprehensive guidance regarding the
sale of unseated lands for unpaid taxes, subject to the
Act of 1815, where a subsurface estate was not duly
reported to the county commissioners prior to the sale.
In such case, our Supreme Court held that a tax sale
effectuates a sale of the property in its entirety, regardless of any prior severance, if taxes are unpaid on both
surface and subsurface estates. Id. at 374-75. Thus, the
purchaser in such a tax sale would obtain perfect title
and become “the ﬁrst link in a new chain of title.” Id.

App. 11
at 379. Further, where the owner of the property sold
at a tax sale does not challenge the assessment or sale
within the two-year redemptive period provided by the
Act of 1815, § 4 as set forth at 72 P.S. § 6091, any subsequent challenge may not be heard. Id. at 374-75.
Here, in its second issue, Proctor seeks to invalidate the 1908 tax sale by averring that the Warrants
were “seated” and therefore were improperly sold at a
tax sale for “unseated” property. To this end, Proctor
cites historical CPLC documents that purportedly establish that CPLC harvested tanbark and lumber from
the Warrants from 1903 through 1909. Therefore, according to Proctor, this Court should deem the 1908 tax
sale void. In support of this proposition, Proctor points
to, inter alia, Cornwall Mountain Investments, L.P.
v. Thomas E. Proctor, 158 A.3d 148, 160 (Pa.Super.
2017) (holding “Tax sales have been voided where
seated property was improperly treated as unseated
. . . ”).
In Herder Spring, the Pennsylvania Supreme
Court discussed the distinction between seated vs unseated lands:
Prior to 1947, Pennsylvania’s land was
categorized as either seated or unseated land.
Seated land was property that had been developed with residential structures, had personal property upon it that could be levied
upon for the tax due, or was producing regular
proﬁt through cultivation, lumbering, or mining. Unseated land is best understood as
“wild” land but included any land that did not

App. 12
meet the requirements of being seated. The
determination of whether land was seated or
unseated was entirely based upon the eye of
the assessor who would transverse the county
determining whether land was being developed and then “return” the land to the county
commissioners to assess the property for taxation.
***
If the assessor determined that the land
was seated, the land was taxed to the land
owner, who was personally responsible for the
payment of the taxes which could be collected
against his or her property. The owner of unseated land, however, was not responsible for
the payment of taxes, which were instead imposed on the land itself, in the name of the
person to whom the original warrant had been
issued. The current owner’s name would be
used only for purposes of description.
Herder Spring at 363-64.
Further, given the difﬁculty that assessors faced
in determining whether vast tracts of land where
“seated” or “unseated” and the ownership thereof, it is
unsurprising that where the assessment procedure
was regular, an ensuing tax sale was deemed valid “irrespective of whether the assessor, in determining the
status of the property made a mistake or not.” Scott v.
Bell, 25 A.2d 308, 309 (Pa. 1942). Thus, purchasers
at tax sales were afforded protection because sales
which followed the proper assessment procedure were
insulated from litigation regardless of “whether the

App. 13
assessor had erred in determining whether the land
was in fact seated or unseated, a question which was
often close and technical.” Id.
In the instant case, the Warrants were assessed as
unseated. Given the difﬁculty assessors faced in classifying huge acreage of often “wild” lands, it is certainly
not unreasonable that assessors could have come to
this conclusion even if tanbark and timber were being
mined on some portion of the Warrants during the time
in question. See Herder Spring, 143 A.3d at 363-64.
Hence, the 1908 tax sale was not susceptible to invalidation on the basis of being classiﬁed as “unseated,” regardless of any factual error by the assessors. See
Scott, 25 A.2d at 309.
Proctor is correct in that Pennsylvania courts have
deemed tax sales void where land that had been
properly assessed as “seated” was mistakenly sold as
“unseated.” See Cornwall, 158 A.3d at 160. This is
not the case here. The Warrants were assessed as “unseated” and sold as such at the 1908 tax sale. Therefore, any mistake of fact regarding the “unseated”
nature of the Warrants made by assessors prior to
the 1908 sale is inapposite because the tax sale was
properly conducted pursuant to the Warrants “unseated” classiﬁcation. See Scott, 25 A.2d at 309. Thus,
the trial court did not err by determining that Proctor’s
contention regarding the alleged mining of tanbark
and timber from the Warrants did not present an outstanding issue of material fact precluding summary
judgment. Hence, Proctor’s second issue merits no relief.

App. 14
Turning to their third issue, Proctor claims that
an outstanding issue of material fact remains regarding whether Proctor’s reservation of the subsurface
rights to the Warrants had been properly reported to
the Lycoming County Commissioners prior to the 1908
tax sale. In support of this contention, Proctor points
to testimony, presented over a century ago, in the
case of Gamble v. Central Pennsylvania Lumber
Company, 74 A. 69 (Pa. 1909). Proctor avers that in
Gamble, Proctor’s former attorney B.S. Bentley and
Elk’s former tax agent S.A. Rote, testiﬁed regarding
their general practice of ensuring taxes were paid on
Proctor/Elk properties in Lycoming County. Thus, according to Proctor, one can infer that the taxes at issue on the Warrants were properly paid. In addition,
Proctor points to various township records and Lycoming County records that they contend indicate
that their subsurface rights to the Warrants were
properly recorded because records regarding neighboring warrants, which were also subject to the 1908
tax sale, properly memorialized Proctor’s subsurface
rights. Proctor maintains that the trial court erred by
failing to ﬁnd that an outstanding issue of material
fact remained as to whether Proctor’s subsurface reservations in the Warrants had been reported to the Lycoming County Commissioners prior to the 1908 tax
sale. Declining to speculate based on the evidence presented, we cannot agree.
Although Proctor presents no direct evidence that
its interests in the Warrants were duly reported to the
Lycoming County Commissioner’s prior to the 1908 tax

App. 15
sale, it contends that this Court is “required” to come
to that conclusion by viewing the evidence in the light
most favorable to the nonmoving party, Proctor. See
Chepkevich, 2 A.3d at 1182. While Proctor is correct
that all proper inferences must be weighed in favor of
the nonmoving party in the context of a summary judgment analysis, this Court must not make the leap to
speculation:
We are also mindful that the evidence relied upon by the non-moving party need not
be direct evidence, but may be circumstantial
evidence and the inferences reasonably deducible therefrom. Nevertheless, such circumstantial evidence and its reasonable
inferences must be adequate to establish the
conclusion sought and must so preponderate
in favor of that conclusion as to outweigh in
the mind of the fact-ﬁnder any other evidence
and reasonable inferences therefrom which
are inconsistent therewith. It is also wellsettled that a court reviewing the propriety of
a summary judgment motion must be mindful
that a jury may not be permitted to reach its
verdict on the basis of speculation or conjecture.
InfoSAGE, Inc. v. Mellon Ventures, L.P., 896 A.2d
616, 626 (Pa. Super. 2006) (citations and internal quotation marks omitted).
Here, the trial court determined that the voluminous documentary evidence provided by Proctor
did not establish, even by inference, that Proctor’s
purported reservation of subsurface rights in the

App. 16
Warrants was reported to the Lycoming County Commissioners prior to the 1908 tax sale. Accordingly, the
trial court found, pursuant to Herder Spring, that the
1908 tax sale effectively divested Proctor from his subsurface reservations in the Warrants. See Herder
Spring, 143 A.3d at 370. We concur with the trial court
because we conclude that Proctor has not presented evidence that establishes a genuine issue of material fact
regarding its contention that the Warrants were duly
reported to the Lycoming County Commissioners without requiring this Court to engage in impermissible
speculation or conjecture. See InfoSAGE, 896 A.2d at
626. Therefore, Proctor’s third issue must also fail.
In issue four, Proctor argues that the trial court
erred by failing to ﬁnd that genuine issues of material
fact, regarding whether Calvin McCauley was acting
as an Agent for CPLC at the time of the 1908 tax sale,
precluded summary judgment. Proctor speciﬁcally argues that documentary evidence from the approximate
time period of the 1908 tax sale shows that McCauley
served as both an ofﬁcer and attorney for CPLC. Therefore, according to Proctor, McCauley’s purchase of the
Warrants at the 1908 tax sale merely constituted a redemption of the property on behalf of CPLC thereby
restoring title to the Warrants to the “status quo”
which would include Proctor’s reservation of subsurface rights. See Yocum v. Zahner, 29 A. 778, 779 (Pa.
1894) (holding that redemption left “the title precisely
as though the sale had not been made.”) Thus, Proctor
avers that its reservation of subsurface rights to the
Warrants should have survived the 1908 tax sale.

App. 17
Further, Proctor emphasizes that the trial court erred
by failing to ﬁnd the 1908 tax sale void because CPLC
should have been precluded from obtaining superior title by failing to pay taxes. In support of this proposition, Proctor cites Powell v. Lantzy, 34 A. 450, 451 (Pa.
1896) (holding one cannot obtain better title via purchase at a tax sale caused by failure to pay taxes one
was legally or morally obligated to pay). However, we
ﬁnd Proctor’s agency argument unavailing.
First, Proctor fails to explain how CPLC or McCauley was under any duty, legal or otherwise, to pay
taxes on Proctor’s subsurface estate. For example in
the Powell case, cited by Proctor, the Court qualiﬁed
its holding by clarifying that the rule prohibiting one
from proﬁting from his own failure to pay taxes was
“restricted to cases where it was the duty of the purchaser to pay the tax.” Id. at 451. Here it was Proctor,
not CPLC or its successors in interest, who failed to
pay taxes on Proctor’s subsurface estate, causing that
estate to be subject to a tax sale. Likewise, Proctor fails
to establish that McCauley was acting at the behest of
CPLC when he purchased the Warrants at the 1908
tax sale. To so conclude, would require this Court to
improperly speculate as to the motives of individuals
acting over a century ago. See InfoSAGE, 896 A.2d at
626.
Further, our recent jurisprudence has established
that McCauley’s motives in 1908 are not instantly dispositive. In Herder Spring, our Supreme Court held
that parties to a tax sale, held pursuant to the Act of
1815, had two years to challenge any irregularities

App. 18
regarding such sale and/or redeem the property at issue. Herder Spring, 143 A.3d at 374-75. As our Supreme Court explained, this two-year statutory period
provided owners of unseated property the opportunity
to redeem or challenge tax sales, while allowing tax
sale purchasers security after the two year period had
run. Id. at 379. Here, Proctor failed to challenge any
alleged irregularity in the 1908 tax sale, regarding
McCauley’s alleged ﬁduciary status or otherwise, during the two-year statutory period and is estopped from
doing so now, over a century later.
Moreover, in Cornwall, this Court emphasized
that a challenge to a tax sale post the two-year statutory period provided under the Act of 1815, is untenable as long as the property was unseated at the time of
its assessment, the tax at issue was assessed by the
proper authorities, and the tax went unpaid for over a
year. Cornwall, 158 A.3d at 162. Indeed, in Cornwall,
the appellants claimed that the tax sale there at issue
was instigated solely for the purpose of allowing an
owner of surface rights to also gain ownership of originally severed subsurface rights. Id. at 161. Our Court
there held that the motives of the tax sale purchaser
were not relevant where the sale was statutorily authorized. Id. at 161-62. Likewise, here the 1908 tax
sale was statutorily authorized, conducted by the
proper authorities, and held in response to unpaid
taxes. Therefore, McCauley’s motives, even if improper,
are not a sufﬁcient reason to void the sale. See Id.
Thus, Proctor’s fourth issue also lacks merit.

App. 19
Proctor, in their ﬁfth issue, argues that the trial
court erroneously granted summary judgment in this
case because the deeds from which Appellees’ predecessors in interest derived title, speciﬁcally the Four
Mile deed and the Lincoln deed, contained language
referencing Proctor’s subsurface rights. To this end
Proctor cites the well settled legal principal that “one
claiming under a deed is bound by any recognition it
contains of title in another.” Elliott v. Moffett, 74 A.2d
164, 167 (Pa. 1950). However, we ﬁnd Proctor’s argument unavailing pursuant to the seminal Herder
Spring.
As our Supreme Court emphasized in Herder
Spring, a “purchaser at a tax sale becomes the ﬁrst
link in a new chain of title and he need not prove the
title back of the same.” Id. at 379 (citation omitted).
Therefore, once the tax sale of unseated lands was effectuated, pursuant to the Act of 1815, the new purchaser, and successors in interest, obtained perfect
title regardless of any deed language reserving subsurface rights to another. Id. Proctor attempts to distinguish Herder Spring by noting that, in that case, the
subject reservation language did not mention the
name of the purported owner but instead merely contained a generic reservation of subsurface rights. However, the fact that Proctor was speciﬁed by name in the
deed language at issue here does not dilute the underlying factual predicate: Proctor’s subsurface rights
were extinguished by the 1908 tax sale. Thus, neither
statutory nor case law allow for the preservation of
Proctor’s extinguished reservation via subsequent

App. 20
deed language. See id. Accordingly, we conclude that
the deed language at issue from the Four Mile and Lincoln deeds did not preserve Proctor’s subsurface rights
in the Warrants after they had been extinguished by
the 1908 tax sale. Thus Proctor’s ﬁfth issue is also devoid of merit.
In issue six, Proctor once again argues that the
trial court erred by failing to consider the 1908 tax sale
void due to CPLC’s own failure to pay taxes on the Warrants and inferred improper motives regarding such
failure. Once again, Proctor cites Powell for the proposition that a purchaser cannot obtain a superior title
based on his “own neglect of duty.” Powell, 34 A. at 451.
However, as we noted in our discussion of Proctor’s
fourth issue above, Powell is distinguishable because
unlike in that case, our instant purchaser McCauley
was under no obligation to pay taxes on behalf of Proctor’s subsurface estate, nor was the debtor CPLC responsible for Proctor’s taxes. Moreover, this Court has
held that even if a purchaser’s motive at a tax sale is
improper, such motive is not sufﬁcient to set aside an
otherwise statutorily authorized sale. See Cornwell,
158 A.3d at 161. Instantly, the 1908 tax sale was statutorily authorized and therefore any alleged improper
motives on the part of purchaser McCauley in 1908 did
not require the trial court to deem that sale void. Thus,
Proctor’s sixth issue also fails.
In their last issue, Proctor sets forth a brief argument that the trial court should have invalidated the
1908 tax sale because Proctor’s due process rights were
violated when they only received notice of the sale by

App. 21
publication when there was allegedly reason to believe
that Proctor’s representatives were well-known to
Lycoming County tax ofﬁcials. However, as acknowledged by Proctor, our Supreme Court rejected a similar
argument in Herder Spring, instead holding that notice by publication in a 1936 tax sale, subject to the Act
of 1815, afforded due process to the parties of the sale.
Herder Spring, 143 A.3d at 376-377. While acknowledging this holding, Proctor attempts to distinguish
Herder Spring by contending that, in that case, the
record did not contain any evidence regarding what
steps might have been involved in ascertaining the
owners of the unseated property to provided personal
notice. However, this argument is inapposite here because Proctor also does not present any factual support
regarding the supposed ease of locating Proctor’s heirs
in regards to the 1908 tax sale that does not require
this Court to engage in impermissible speculation or
conjecture. See InfoSAGE, 896 A.2d at 626. Moreover,
Proctor fails to elucidate as to why, even if such evidence were available, it would negate the holding in
Herder Spring which established that notice by publication does not violate an owner’s due process rights
in the instant circumstance. Therefore, we conclude
that Proctor’s seventh issue also merits no relief.
Accordingly, because we conclude that the trial
court properly determined that the 1908 tax sale extinguished the subsurface rights of Proctor and Proctor
has raised no outstanding issues of material fact regarding the same, we hold that the trial court properly

App. 22
granted Appellees’ respective motions for summary
judgment.
Order afﬁrmed.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 12/06/2019

App. 23
APPENDIX C
THE COURT OF COMMON PLEAS
OF LYCOMING COUNTY,
PENNSYLVANIA
KETA GAS & OIL COMPANY, a : NO. 50-571
Pennsylvania Corporation, formerly :
KETA REALTY COMPANY,
:
:
Plaintiff,
:
vs.
:
THOMAS E. PROCTOR, JAMES :
:
H. PROCTOR, THOMAS E.
PROCTOR, JR., ANNE PROCTOR :
:
RICE, EMILY PROCTOR
MANDELL, LYDIA W. THACHER, :
AUGUSTA PROCTOR, ELLEN :
O. PROCTOR, SARAH JOSLIN, :
:
ABEL H. PROCTOR, and
CIVIL ACTION
MASSACHUSETTS GENERAL :
:
HOSPITAL, heirs, legatees and
:
devisees under the will of
:
Thomas E. Proctor, and all
:
persons claiming under or
:
through any of the above, and
:
BRINKER HUNTING CLUB,
:
Defendants,
:
ANADARKO E & P ONSHORE :
LLC, SOUTHWESTERN ENERGEY :
PRODUCTION COMPANY,
:
and INTERNATIONAL
:
DEVELOPMENT CORPORATION, : Pa.R.A.P.
: Rule 1925(a) Order
Intervenors.

App. 24
ORDER IN SUPPORT
OF OCTOBER 22nd OPINION
AND NOW, having reviewed Appellants Thomas
E. Proctor heirs Trust and Margaret O.F. Proctor
Trust’s concise statement of matters complained of on
appeal,1 which was received by chambers on December
18, 2018, as well as Appellant Trout Run Hunting &
Fishing Club, Inc.’s concise statement of matters complained of on appeal, which was received by chambers
on December 24, 2018,2 the Court is satisﬁed that its
October 22, 2018 Opinion sufﬁciently addresses the issues now raised. Therefore, the Court wishes to rely on
its prior opinion.
IT IS SO ORDERED this 8th day of January
2019.
BY THE COURT,
/s/ Eric R. Linhardt
Eric R. Linhardt, Judge

1

Pa.R.A.P. Rule 1925(b)(3)(ii). The Proctor heirs’ Notice of
Appeal was ﬁled on November 21, 2018. The Proctor heirs’ Concise Statement of Matters Complained of on Appeal was ﬁled on
December 17, 2018.
2
Trout Run Hunting & Fishing Club, Inc.’s Notice of Appeal
was ﬁled on November 20, 2018. Trout Run Hunting & Fishing
Club, Inc.’s Concise Statement of Matters Complained of on Appeal was ﬁled on December 24, 2018.

App. 25
cc: Paul K. Stockman, Esquire
Kazmarek Mowrey Cloud Laseter LLP
One PPG Place, Suite 3100
Pittsburgh, PA 15222
Jeffrey J. Malak, Esquire
Jerry B. Chariton, Esquire
Chariton, Schwager & Malak
138 South Main Street
Wilkes-Barre, PA 18703
John A. Snyder, Esquire
Suzette Sims, Esquire
McQuaide Blasko Law Ofﬁces
811 University Drive
State College, PA 16801
Robert J. Burnett, Esquire
Houston Harbaugh, PC
401 Liberty Avenue, 22nd ﬂoor
Three Gateway Center
Pittsburgh, PA 15222
Courtney S. Schorr, Esquire
Laura-Lange, Esquire
McGuire Woods, LLP
260 Forbes Avenue, Suite 1800
Pittsburgh, PA 15222
J. McDowell Sharpe, Esquire
Alexander C. Sharpe, Esquire
Sharpe & Sharpe, LLP
257 Lincoln Way East
Chambersburg, PA 17201

App. 26
APPENDIX D
THE COURT OF COMMON PLEAS
OF LYCOMING COUNTY,
PENNSYLVANIA
KETA GAS & OIL COMPANY, a : NO. 50-571
Pennsylvania Corporation, formerly :
KETA REALTY COMPANY,
:
:
Plaintiff,
:
vs.
:
THOMAS E. PROCTOR, JAMES :
:
H. PROCTOR, THOMAS E.
PROCTOR, JR., ANNE PROCTOR :
:
RICE, EMILY PROCTOR
MANDELL, LYDIA W. THACHER, :
AUGUSTA PROCTOR, ELLEN :
O. PROCTOR, SARAH JOSLIN, :
:
ABEL H. PROCTOR, and
CIVIL ACTION
MASSACHUSETTS GENERAL :
:
HOSPITAL, heirs, legatees and
:
devisees under the will of
:
Thomas E. Proctor, and all
:
persons claiming under or
:
through any of the above, and
:
BRINKER HUNTING CLUB,
:
Defendants,
:
ANADARKO E & P ONSHORE :
LLC, SOUTHWESTERN ENERGEY :
PRODUCTION COMPANY,
: Motions for
and INTERNATIONAL
: Summary
DEVELOPMENT CORPORATION, : Judgment;
: Motions to Strike
Intervenors.

App. 27
MEMORANDUM OPINION
In 2015, this case was reinvigorated by an order of
this Court opening a default judgment entered in 1951.
Currently before this Court are ﬁve (5) motions. On
April 25, 2018, Trout Run Hunting & Fishing Club, Inc.
(hereinafter “Trout Run”)—claimed successor in title
and interest to Defendant Brinker Hunting Club’s
948.86 acres in James Strawbridge Warrant 5665—
ﬁled a Motion to Strike the Default Judgment entered
on March 14, 1951 by this Court.1 On May 14, 2018,
International Development Corporation, Southwestern Energy Production Company, and Anadarko E&P
Onshore LLC, as successors in interest to Keta Gas &
Oil Company (collectively “Intervenors”), ﬁled separate
Motions for Summary Judgment.2 Numerous Briefs in
Support, Responses, and Replies have been ﬁled and
reviewed by the Court in this matter. On July 10, 2018,
the heirs of Thomas E. Proctor (hereinafter “Defendants”) ﬁled responses to the Intervenors’ Motions for
Summary Judgment, raising New Matter as part of
those responses. In late July 2018, the intervenors ﬁled
Motions to Strike New Matter/Reply to New Matter, arguing it was improper to raise New Matter in a response to a motion for summary judgment as well as
responding to said New Matter. A Motion hearing was
held on July 20, 2018, and the Court reserved decision.

1

Trout Run’s Petition to Strike Default Judgment at 1-2
(Apr. 25, 2018).
2
These three (3) motions will be addressed together since
they raise identical concerns.

App. 28
This is the Court’s Memorandum Opinion and Order
on all ﬁve (5) motions.
RECENT PROCEDURAL HISTORY
On October 2, 2014, this Court denied a Petition to
Strike ﬁled by the heirs of Thomas Proctor.3 The Court
found that a defect did not exist on the face of the record, as the heirs’ challenges of a lack of a “diligent investigation” and claim that the Plaintiff did in fact
have actual knowledge of the Proctor heirs’ whereabouts were not appropriate for a motion to strike since
the former was not a defect and the latter did not appear on the face of the record.4 Similarly, on August
14, 2015, the Margaret O. Proctor Trust, as heirs of
Thomas Proctor, ﬁled a Petition to Strike and/or Open
the March 14, 1951 Default Judgment.5 Amidst the
Court’s discussion of the petitioners’ four arguments
in relation to the motion to strike, the Court found
that the Keta Gas Complaint was not deficient in regard to its description of the land and chain of title.6
The Court ultimately denied the petitioners’ Motion
to Strike, but scheduled an evidentiary hearing
3

Keta Gas & Oil Co. v. Thomas E. Proctor, et at, No. 50-00,
571, Opinion and Order: Petition to Strike Judgment (Lyco. Com.
Pl. Oct. 2, 2014).
4
Id. at 3.
5
Keta Gas & Oil Co. v. Thomas E. Proctor, et al., No. 50-00,
571, Opinion and Order: Petition to Strike and/or Open Default
Judgment (Lyco. Com. Pl. Aug. 14, 2015).
6
Id. at 3 (“The chain of title alleged in the Complaint is sufﬁcient to support Plaintiff ’s request to quiet title.”).

App. 29
regarding the Motion to Open.7 On December 18, 2015,
the Court found that fraud had been perpetrated in
1950 in order to attain the 1951 default judgment and,
thus, the Court opened the judgment.8
RELEVANT FACTUAL HISTORY
In 1894, Thomas Proctor and his wife owned the
surface and subsurface underlying the parcels of
James Strawbridge Warrant 5665 (“W5665”) and
James Strawbridge Warrant 5667 (“W5667”). On October 2, 1894, Proctor and his heirs conveyed their surface rights by deed to Elk Tanning Company, reserving
“ail the natural gas, coal, coal oil, petroleum, marble
and all minerals of every kind and character in, upon,
or under the said land.9 On May 25, 1903, Elk Tanning
Company conveyed their surface rights to Central
Pennsylvania Lumber Company (“CPLC’’).10 And, on
7

Id. at 5.
Keta Gas & Oil Co. v. Thomas E. Proctor, et al., No. 50-00,
571, Opinion and Order: Petition to Open Default Judgment at 15
(Lyco. Com. Pl. Dec. 18, 2015).
9
Thomas E. Proctor Trust and Margaret O.F. Proctor’s
Trust’s Response to International Development Corporation’s
Motion for Summary Judgment, Ex. 7 (July 10, 2018).
10
International Development Corporation’s Motion for Summary Judgment, Ex. 3. Defendants argue that three separate estates existed on the property following this 1903 transfer—“(1)
the Proctor subsurface estate, (2) the Elk Tanning Company bark
estate, and (3) the CPLC surface estate.” Thomas E. Proctor Trust
and Margaret O.F. Proctor’s Trust’s Response to international
Development Corporation’s Motion for Summary Judgment at 4
(July 10, 2018). Defendants have provided alleged support for
these allegations in their New Matter. For reasons discussed
8

App. 30
June 8, 1908, Calvin H. McCauley Jr. (“McCauley”)
purchased W5665 and W5667 at a tax sale, as evidenced by entries in the Treasurer’s Sales Book No. 2.11
On December 6, 1910, McCauley and his wife conveyed
their interest in W5665 and W5667 to CPLC, conveyed
ﬁfty-six (56) parcels within the instrument.12 On May
26, 1913, CPLC conveyed its interest in W5667 to Four
Mile Fish & Game Club, but reserved the subsurface
rights to Thomas E. Proctor, his heirs, and assignees.13
On December 15, 1921, CPLC conveyed its interest in
W5665 to Lincoln Hunting & Fishing Club, but reserved the subsurface rights to Thomas E. Proctor, his
heirs, and assignees.14
On August 7, 1942, CPLC conveyed its subsurface rights in W5665 and W5667 by quitclaim deed
to Keystone Tanning & Glue Company. On October
29, 1943, Keystone Tanning & Glue Company conveyed their subsurface rights in W5665 and W5667 to
Keta Realty Company, which later became Keta Gas &

herein, the New Matter is an improper vehicle and, regardless,
the claims are mere conjecture.
11
International Development Corporation’s Motion for Summary Judgment, Ex. 4.
12
Id., Ex. 5.
13
Thomas E. Proctor Trust and Margaret O.F. Proctor’s
Trust’s Response to International Development Corporation’s
Motion for Summary Judgment, Ex. 73. While the Court references documents noted in Defendants’ New Matter, the Court’s
reliance is not misplaced as the exhibits reference ofﬁcial documents that the parties do not dispute exist.
14
Id., Ex. 74.

App. 31
Oil Company on August 28, 1950. Following conveyances not relevant to the current proceeding, Keta Gas
& Oil Company’s successors in interest acquired the
subsurface rights at issue in the case at bar.
DISCUSSION
I.

The Intervenors’ Motions for Summary Judgment

Despite the copious amounts of paper utilized in
this proceeding, the summary judgment issues revolve
around the parties’ dispute as to whether a 1908 tax
sale of unseated land extinguished the separation of
the surface rights and subsurface rights; thus, rendering Thomas Proctor’s reservation of subsurface rights
in his 1894 deed a nullity. As previously noted by the
Pennsylvania Supreme Court,
The standards which govern summary judgment are well settled. When a party seeks
summary judgment, a court shall enter judgment whenever there is no genuine issue of
any material fact as to a necessary element of
the cause of action or defense that could be established by additional discovery. A motion for
summary judgment is based on an evidentiary record that entitles the moving party to
a judgment as a matter of law. In considering
the merits of a motion for summary judgment,
a court views the record in the light most favorable to the non-moving party, and all
doubts as to the existence of a genuine issue
of material fact must be resolved against the

App. 32
moving party. Finally, the court may grant
summary judgment only when the right to
such a judgment is clear and free from doubt.15
Based on the Pennsylvania Supreme Court’s recent
ruling in Herder Spring Hunting Club v. Keller,16 the
following law and history regarding unseated land is
clear:
(a) Unseated land refers to “‘wild’ land” that does
not meet the deﬁnition of “seated land,” which
is property that has been “developed with residential structures, had personal property
upon it that could be ‘levied upon for the tax
due,’ or was producing regular proﬁt through
cultivation, lumbering, or mining.”17
(b) The Pennsylvania Supreme Court allowed unseated land to be severable into surface and
subsurface estates.18
(c) Because owners of unseated lands were not
always identiﬁable by the county authorities,
the unseated land itself was taxed instead of
the owner.19
(d) Pursuant to the Act of 1815, a speciﬁc procedure was implemented to sell unseated land

15

Swords v. Harleysville Ins. Cos., 883 A.2d 562, 566-67 (Pa.
2005) (internal citations omitted).
16
Herder Spring Hunting Club v. Keller, 143 A.3d 358 (Pa.
2016).
17
Id. at 363-64.
18
Id. at 364.
19
Id.

App. 33
for a failure to pay taxes assessed on the
land.20
(e) As part of this procedure, county treasurers
were required to “hold a public sale on the
second Monday of June 1816, and every two
years thereafter for the sale of tracts of unseated land upon which the taxes had been
unpaid for at least a year.”21
(f ) To protect owners, the legislature allowed for
a two (2) year redemption period in which the
owner could pay the taxes and costs plus a
percent penalty and recover the land sold.22
(g) However, when this two (2) year redemption
period expired, the owner forfeited his right to
challenge any “irregularity in the assessment,
or in the process or otherwise.”23
(h) Pursuant to the Act of 1806, and case law
stemming from the Act, if the county commissioners were not notiﬁed of a subsurface reservation, then the purchaser of the land at the
tax sale purchased the property as a whole.24
(i)

20
21
22
23
24

The county commissioners were under no obligation to obtain information regarding unseated lands; indeed, that obligation was
initially shouldered by the surveyors and then
passed onto the original and subsequent

Id. at 365.
Id. at 366.
Id.
Id. (quoting 72 P.S. § 6091).
Id. at 368.

App. 34
owners to update the commissioners as to the
status of the land.25
In the shadow of this historic exposition, the Pennsylvania Supreme Court found that a failure to inform
the county commissioners of the reservation of surface
rights, or later transfer, resulted in the lands being
taxed as a whole, and later sold.26 Further, the Supreme Court agreed with the Pennsylvania Superior
Court that any issues with the assessments and tax
sale had to have been brought within the two (2) year
redemption period provided by law.27 In Southwestern
Energy Production Company v. Anadarko E&P Onshore LLC, et al., this Court recently relied on Herder
Spring in ﬁnding that a failure to inform the county
commissioners of a severance of subsurface rights resulted in those rights being extinguished in a subsequent tax sale.28
In the case at bar, Defendants have failed to provide sufﬁcient evidence that Thomas Proctor informed
the Lycoming County Commissioners of his reservation of subsurface rights in W5665 or W5667. The 1908
tax sale is supported by documentary records,29 and

25

Id. at 368-89.
Id. at 372.
27
Id. at 374.
28
Southwestern Energy Production Company v. Anadarko
E&P Onshore LLC, et al., No. 12-00,563, Opinion and Order: Motion for Summary Judgment at 2-3 (Lyco. Com. Pl. July 31, 2017).
29
See Woodhouse Hunting Club, Inc. v. Hoyt, 183 A.3d 453,
459 (Pa. Super. Ct. 2018) (ﬁnding that only “reliable indicia” that
26

App. 35
the tax assessments of the land do not indicate that
the Lycoming County Commissioners were informed of
Thomas Proctor’s reservation of subsurface rights or
that he redeemed W5665 or W5667 within the statutory two (2) year redemption period. It is Defendants’
burden to provide evidence sufﬁcient to support its position in opposition to the motions for summary judgment.30 Indeed, Herder Spring requires Defendants to
provide evidence supporting their argument that the
land was not taxed as a whole.31
Despite Herder Spring’s elucidation, Defendants
argue that: (1) Thomas Proctor retained all rights
through his chain of title because he reported his 1894
deed to Lycoming County, which is sufﬁcient to protect
it from the subsequent tax sale; (2) McCauley purchased the parcels at the tax sale as an agent for
CPLC, therefore, redeeming the land; and (3) the land
was not unseated at the time because timber and tanbark were produced on the land.
Preliminarily, the Court notes that to the extent
Defendants rely on the new matter found in their
the sale of the deed complied with the terms of law is required to
show that the deed was issued).
30
See Pa.R.C.P. Rule 1035.3.
31
See Herder Spring Hunting Club, 143 A.3d at 375 (“In this
case, the documents relating to the 1935 tax sale provide no indication that the assessment and taxation occurred on anything
other than the entire Eleanor Siddons Warrant, as they provide
no reference to the surface estate or a reserved subsurface estate.
Therefore, we conclude that the 1935 tax sale to the Centre
County Commissioners conveyed the entire Eleanor Siddons Warrant including both the surface and subsurface estates.”).

App. 36
responses to the motions for summary judgment, such
reliance is misplaced. Defendants have failed to reference the appropriate rule or precedent allowing such a
procedure. As such, Defendants’ new matter will not be
considered. However, even if this Court were to rely on
the New Matter, Defendants’ arguments are based in
speculation and conjecture regarding similar transactions and/or the normal procedure for such transactions.
First, under Herder Spring, Thomas Proctor is
not simply required to notify the Lycoming County
Commissioners of his original deed, as subsequent
reservations also require notiﬁcation. Hence, Defendants’ argument that the 1893 Lycoming County assessment records indicate Plaintiff ’s ownership of these
two parcels does not support the argument that a reservation occurred. Alternatively, Defendants provide
no evidence that Thomas Proctor notiﬁed the Lycoming County Commissioners that he was reserving
his subsurface rights in W5665 and W5667. Thus, the
Court will decline Defendants’ request that it speculate and ﬁnd that Thomas Proctor did notify the county
commissions of such reservations regarding W5665
and W5667 as it was his habit of doing so based on the
testimony provided in the 1907 case of Gamble &
Green v. Central Pennsylvania Lumbar Company.32
Defendants point to passages of testimony by S.A.
Rote, Thomas E. Proctor’s tax agent, and B.S. Bentley,
32

Thomas E. Proctor Trust and Margaret O.F. Proctor’s Trust’s
Response to International Development Corporation’s Motion for
Summary Judgment at 26.

App. 37
Thomas E. Proctor’s attorney, who testiﬁed to his business practices regarding unseated lands.33 However,
the testimony was focused on Warrant 5666, which is
not at issue in this case.34 Further, an inference is required to ﬁnd that Mr. Rote testiﬁed that he paid taxes
on the W5665 and W5667, as he did not mention which
taxes were paid.35
The Court will similarly decline Defendants’ invitation to speculate that the correspondence notifying
the Lycoming commissioners was likely “lost or discarded.”36 And, regarding Defendants’ claim of habit,
more substantial evidence would be required to establish that the “routine practice” of Elk Tanning Company to reserve subsurface rights in other instances
proves it acted similarly in this regard. Second, Defendants provide no direct evidence that McCauley
was acting as CPLC’s agent at the time of the tax sale.
Third, Herder Spring prevents this Court from analyzing whether the land was properly assessed after the
two (2) year redemption period ran.
For these reasons, the entrance of summary judgment against Thomas Proctor and his wife’s successors
in interest, i.e. Defendants as used herein, seems appropriate. As the 1908 tax sale divested Thomas

33
34
35
36

Id. at 27-28.
Id., Ex. 1, pp. 189-199 (emphasis added).
Id., Ex. 1, pp. 187.
Id. at 28.

App. 38
Proctor of his subsurface reservations, Defendants possess no interest in the present proceedings.
II.

Trout Run’s Petition to Strike 1951 Default
Judgment

Despite this Court denying two petitions to strike
in 2014 and 2015 and opening the 1951 default judgment in 2015, Trout Run Hunting & Fishing Club Inc.
(“Trout Run”) requests the Court strike the 1951 Default Judgment.37 Trout Run argues that it is not clear
from this Courts December 18, 2015 Opinion and Order opening the 1951 default judgment whether it was
opened to all Defendants, including Brinker and its
successors in interest.38 Trout Run argues that a petition to strike is appropriate because the chain of title
is incorrect.39 Trout Run asserts that CPLC misrepresented in its 1921 conveyance of land to Elk Tanning
Company that CPLC was conveying land conveyed to
it by Thomas E. Proctor.40 CPLC’s deed, which was conveyed to Lincoln Hunting and Fishing Club, states:
“Excepting and Reserving, Nevertheless, unto Thomas
E. Proctor his heirs and assigns, all the natural gas,
coal, coal oil, petroleum, marble and all minerals of
every kind and character, in, upon or under the said
lands hereinbefore mentioned and described and every
37

See generally Trout Run’s Petition to Strike Default Judgment (Apr. 25, 2018).
38
Id. ¶8.
39
Id. ¶15.
40
Id. ¶16.

App. 39
part thereof. . . .”41 Trout Run notes that this conveyance was void because Thomas Proctor’s rights had
ceased once Calvin McCauley purchased W5665 and
W5667 at the 1908 tax sale.42 Hence, Trout Run argues
that CPLC failed to reserve its subsurface rights in
W5665.43 Based on these facts, Trout Run argues that
Keta Gas & Oil Co. possessed no interest to adjudicate
with regard to W5665 and, therefore, the 1951 default
judgment was void.44 Under Pennsylvania law,
A petition to strike a judgment is a common
law proceeding which operates as a demurrer
to the record. A petition to strike a judgment
may be granted only for a fatal defect or irregularity appearing on the face of the record. In
considering the merits of a petition to strike,
the court will be limited to a review of only the
record as ﬁled by the party in whose favor the
warrant is given, i.e., the complaint and the
documents which contain confession of judgment clauses.45
However, in this regard, the Court is bound by the law
of the case doctrine’s coordinate jurisdiction rule.46
“[T]he coordinate jurisdiction rule commands that
41

Thomas E. Proctor Trust and Margaret O.F. Proctor’s
Trust’s Response to International Development Corporation’s
Motion for Summary Judgment, Ex. 74 (emphasis added).
42
Id.
43
Trout Run’s Petition to Strike Default Judgment, ¶46.
44
Id. ¶¶50-51.
45
Resolution Tr. Corp. v. Copley Qu-Wayne Assocs., 683 A.2d
269, 273 (Pa. 1996) (internal citations omitted).
46
Zane v. Friends Hosp., 836 A.2d 25, 29 (Pa. 2003).

App. 40
upon transfer of a matter between trial judges of coordinate jurisdiction, a transferee trial judge may not alter resolution of a legal question previously decided by
a transferor trial judge.”47 In the present case, Judge
Anderson previously addressed this issue in his August 14, 2015 Opinion and Order. Specifically, the
Court found that Keta Gas & Oil Company’s Complaint was not deﬁcient in regard to its description of
the land and chain of title.48 The Court is bound by this
determination.
Nevertheless, to the extent an argument can be
made that this Court’s prior adjudication did not adequately address Trout Run’s argument, this Court
finds that Black Wolf Rod & Gun Club, Inc. v. International Development Corporation is persuasive.49 In
Black Wolf, the Pennsylvania Superior Court afﬁrmed
a decision of this Court which found a reservation
clause in a deed conveyed after a tax sale to be valid
despite the reservation’s use of terminology “as fully as
the same have been excepted and reserved or conveyed
by former owners.50 The Superior Court agreed with
47

Id.
Keta Gas & Oil Co. v. Thomas E. Proctor, et al., No. 50-00,
571, Opinion and Order: Petition to Strike and/or Open Default
Judgment at 3 (Lyco. Com. Pk. August 14, 2015).
49
Black Wolf Rod & Gun Club, Inc. v. International Development Corporation, et al., 2016 WL 6212981 (Pa. Super. Ct. Oct.
25, 2016). The Court believes this memorandum opinion falls under an exception to the Operating Procedures of the Superior
Court. See 210 Pa. Code § 65.37 (when it is relevant under the
doctrine of law of the case. . . .”).
50
Id. at *4.
48

App. 41
this Court that the intent behind the drafting of the
subsequent conveyance was merely meant to reserve
the rights in the same manner as the original owner.51
In the present case, this Court fails to see a distinction
to CPLC’s reservation. Therefore, the fact that the
drafters failed to choose more exacting language does
not create a prima facie defect.
Moreover, it is unclear why Trout Run is now expressing concern that Brinker Run may have been confused regarding its rights during this case. Brinker
Run was free to contest this Court’s default judgment
ruling in 1951, or when Judge Anderson opened this
case in 2015.52 Indeed, Trout Run’s petition to strike
seems moot at this juncture.
CONCLUSION
For the reasons discussed above, Trout Run’s Petition to Strike is DISMISSED AS MOOT. The Intervenors’ Motion to Strike New Matter is GRANTED, and
the Intervenors’ Motions for Summary Judgment as to
the Proctor heir Defendants are GRANTED.

51

Id.
This Court noted that Brinker Run received personal service of the 1951 default judgment in its December 18, 2015 opinion. See Keta Gas & 011 Co. v. Thomas E. Proctor, et al., No. 5000, 571, Opinion and Order: Petition to Open Default Judgment
at 2 n.2 (Lyco. Com. Pl. Dec. 18, 2015).
52

App. 42
IT IS SO ORDERED this 22nd day of October,
2018.
BY THE COURT
/s/ Eric R. Linhardt
Eric R. Linhardt, Judge
cc: Paul K. Stockman, Esquire
Kazmarek Mowrey Cloud Laseter LLP
One PPG Place, Suite 3100
Pittsburgh, PA 15222
Gerard M. Karam, Esquire
Christopher J. Szewszyk, Esquire
Mazzoni, Karam, Petorak & Valvano
321 Spruce Street, Suite 201
Scranton, PA 18503
Jeffrey J. Malak, Esquire
Jerry B. Chariton, Esquire
Chariton, Schwager & Malak
138 South Main Street
Wilkes-Barre, PA 18703
John A. Snyder, Esquire
Suzette Sims, Esquire
McQuaide Blasko Law Ofﬁces
811 University Drive
State College, PA 16801
Robert J. Burnett, Esquire
Houston Harbaugh, PC
401 Liberty Avenue, 22nd ﬂoor
Three Gateway Center
Pittsburgh, PA 15222
Courtney S. Schorr, Esquire
Laura Lange, Esquire
McGuire Woods, LLP
260 Forbes Avenue, Suite 1800
Pittsburgh, PA 15222

App. 43
J. McDowell Sharpe, Esquire
Alexander C. Sharpe, Esquire
Sharpe & Sharpe, LLP
257 Lincoln Way East
Chambersburg, PA 17201

App. 44
APPENDIX E
IN THE SUPERIOR COURT OF PENNSYLVANIA
MIDDLE DISTRICT
KETA GAS & OIL COMPANY,
A PENNSYLVANIA CORPORATION, FORMERLY KETA
REALTY COMPANY
v.
THOMAS E. PROCTOR,
JAMES H. PROCTOR,
THOMAS E. PROCTOR, JR.,
ANNE PROCTOR RICE, EMILY
PROCTOR MANDELL, LYDIA
W. THACHER, AUGUSTA
PROCTOR, ELLEN O. PROCTOR, SARAH JOSLIN, ABEL H.
PROCTOR AND MASSACHUSETTS GENERAL HOSPITAL,
HEIRS LEGATEES AND DEVISEES UNDER THE WILL OF
THOMAS E. PROCTOR, AND
ALL PERSONS CLAIMING
UNDER OR THROUGH THE
ABOVE, AND BRINKER
HUNTING CLUB, A NONPROFIT CORPORATION
v.
ANADARKO E&P ONSHORE,
LLC, SOUTHWESTERN ENERGY PRODUCTION COMPANY, AND INTERNATIONAL
DEVELOPMENT CORPORATION

: No. 1975 MDA 2018
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

App. 45
APPEAL OF: TRUSTEES OF
THE THOMAS E. PROCTOR
HEIRS TRUST AND TRUSTEES OF THE MARGARET
O.F. PROCTOR TRUST

:
:
:
:
:

ORDER
(Filed Feb. 11, 2020)
IT IS HEREBY ORDERED:
THAT the application ﬁled December 20, 2019, requesting reargument of the decision dated December
6, 2019, is DENIED.
PER CURIAM

App. 46
APPENDIX F
IN THE COURT OF COMMON PLEAS OF
LYCOMING COUNTY, PENNSYLVANIA
NO. 571 of December Term,
KETA GAS & OIL
COMPANY, a Pennsylvania 1950
Corporation, formerly
CIVIL ACTION
KETA REALTY COMPANY, Judge Dudley Anderson
Plaintiff,
MARGARET O.F.
v.

PROCTOR TRUST’S
THOMAS E. PROCTOR, ANSWER AND NEW
MATTER TO KETA
JAMES H. PROCTOR,
THOMAS E. PROCTOR, GAS & OIL COMPANY’S
COMPLAINT IN ACTION
JR., ANNE PROCTOR
RICE, EMILY PROCTOR TO QUIET TITLE
MANDELL, LYDIA W.
Notice to Plead:
THACHER, AUGUSTA
To: All Parties
PROCTOR, ELLEN O.
You are hereby
PROCTOR, and
notified to file a written
MASSACHUSETTS
response to the enclosed
GENERAL HOSPITAL,
Answer and New Matter
heirs, legatees and
within twenty (20) days
devisees under the will
from the date of service
of Thomas E. Proctor,
hereof or a judgment may
defendants, and all
be entered against you.
persons claiming under
or through any of the
By: /s/ Laura A. Lange
above, and BRINKER
Laura A. Lange,
HUNTING CLUB, a
Esquire
non-proﬁt corporation,
Defendants,
*

*

*

App. 47
Defendants Bank of America, N.A. and John J. Slocum, Jr., Trustees of the Margaret O.F. Proctor Trust
(collectively, the “MPT”), for their Answer and New
Matter to the Complaint of Keta Gas & Oil Company
(“Keta”), state the following:
*

*

*

NEW MATTER
*

*

*

80. The 1908 Tax Sales did not affect the title of
the heirs of Thomas E. Proctor (including the MPT)
because the heirs of Thomas E. Proctor did not receive
constitutionally-sufﬁcient notice and an opportunity to
be heard.
*

*

*

WHEREFORE, the Trustees of the Margaret O.F.
Proctor Trust respectfully request that the Court enter
an order declaring that the heirs of Thomas E. Proctor
are the rightful owners of the all the natural gas, coal,
coal oil, petroleum, marble and all minerals of every
kind and character in, upon, or under the land of
James Strawbridge Warrant 5665, situated in Cogen
House Township, and James Strawbridge Warrant 5667,
situated in Lewis Township, dismiss the Complaint

App. 48
and grant any other relief that this Court deems just
and appropriate.
Date: July 20, 2015

Respectfully submitted,
/s/ Laura Lange
Paul K. Stockman
(Pa. I.D. No. 66951)
Courtney S. Schorr
(Pa. I.D. No. 317370)
Laura A. Lange
(Pa. I.D. No. 310733)
McGuireWoods LLP
625 Liberty Avenue, Suite 2300
Pittsburgh, PA 15222
Telephone: (412) 667-6000
Telecopier: (412) 667-7975
Counsel for Trustees of the
Margaret O.F. Proctor Trust

App. 49
APPENDIX G
IN THE COURT OF COMMON PLEAS OF
LYCOMING COUNTY, PENNSYLVANIA
KETA GAS & OIL
COMPANY, a Pennsylvania
Corporation, formerly
KETA REALTY COMPANY,
Plaintiff,

NO. 571 of December Term,
1950
CIVIL ACTION
Judge Dudley Anderson

MARGARET O. F.
PROCTOR TRUST’S
THOMAS E. PROCTOR, AND THOMAS F.
PROCTOR HEIRS
JAMES H. PROCTOR,
THOMAS E. PROCTOR, TRUST’S ANSWER
AND NEW MATTER
JR., ANNE PROCTOR
RICE, EMILY PROCTOR TO ANADARKO E&P
ONSHORE, LLC’S
MANDELL, LYDIA W.
COUNTERCLAIMS
THACHER, AUGUSTA
AND COUNTERCLAIM
PROCTOR, ELLEN O.
AGAINST ALL
PROCTOR, and
INTERVENORS
MASSACHUSETTS
GENERAL HOSPITAL,
Notice to Plead:
heirs, legatees and
To: All Intervenors
devisees under the will
You are hereby
of Thomas E. Proctor,
notified to file a written
defendants, and all
response to the enclosed
persons claiming under
Answer and New Matter
or through any of the
and Counterclaims
above, and BRINKER
within twenty (20) days
HUNTING CLUB, a
from the date of service
non-proﬁt corporation,
hereof or a judgment may
Defendants,
be entered against you.

v.

App. 50
and
ANADARKO E&P
ONSHORE LLC,
SOUTHWESTERN
ENERGY PRODUCTION
COMPANY, and
INTERNATIONAL
DEVELOPMENT
CORPORATION,

By: /s/ Laura A. Lange
Laura A. Lange,
Esquire

Intervenors
*

*

*

Bank of America, N.A. and John J. Slocum, Jr.,
Trustees of the Margaret O. F. Proctor Trust (the “MPT”),
and Charles Rice Kendall and Ann P. Hochberg, the
Trustees of the Thomas E. Proctor Heirs Trust (the
“PHT”) (the MPT and PHT are collectively “the Trusts”),
for their Answer and New Matter to the Counterclaims
of Anadarko E&P Onshore LLC (“Anadarko”), state the
following:
ANSWER TO ANADARKO COUNTERCLAIMS
*

*

*

NEW MATTER
*

*

*

225. The 1908 Tax Sales did not affect the title of
the heirs of Thomas E. Proctor (including the Trusts)
because the heirs of Thomas E. Proctor did not receive
constitutionally-sufﬁcient notice and an opportunity to
be heard.

App. 51
*

*

*

WHEREFORE, the Trustees of the Margaret O.F.
Proctor Trust and the Trustees of the Thomas E. Proctor Heirs Trusts respectfully request that the Court
enter an order declaring that the heirs of Thomas E.
Proctor are the rightful owners of the all the natural
gas, coal, coal oil, petroleum, marble and all minerals
of every kind and character in, upon, or under portions
of the land of James Strawbridge Warrant 5665, situated in Cogan House Township, and James Strawbridge Warrant 5667, situated in Lewis Township,
dismiss the Complaint and grant any other relief that
this Court deems just and appropriate.
COUNTERCLAIM COUNT I — QUIET TITLE
(Against Anadarko E&P Onshore LLC,
International Development Corp. and
Southwestern Energy Production Co.)
232. The Trusts hereby incorporate by reference
the MPT’s responses and new matter to the Complaint
ﬁled by Keta Oil & GaS and the averments and responses set forth above in Paragraphs 87 through 229
as though set forth at length herein.
*

*

*

241. The 1908 Tax Sales and Tax Deeds did not
affect the title of the heirs of Thomas E. Proctor (including the Trusts) because the heirs of Thomas E.
Proctor did not receive notice and an opportunity to be
heard.

App. 52
*

*

*

250. The 1908 Tax Sales and Tax Deeds are void
and invalid because notice by publication alone violated the due process guarantees of the Pennsylvania
and United States Constitutions.
*

*

*

WHEREFORE, the Trustees of the Margaret O.F.
Proctor Trust and the Trustees of the Thomas E. Proctor Heirs Trusts respectfully request that the Court
enter an order declaring that the heirs of Thomas E.
Proctor are the rightful owners of the all the natural
gas, coal, coal oil, petroleum, marble and all minerals
of every kind and character in, upon, or under portions
of the land of James Strawbridge Warrant 5665, situated in Cogan House Township, and James Strawbridge Warrant 5667, situated in Lewis Township,
dismiss the Complaint and grant any other relief that
this Court deems just and appropriate.
Date: March 9, 2016

Respectfully submitted,
/s/ Laura Lange
Paul K. Stockman
(Pa. I.D. No. 66951)
Courtney S. Schorr
(Pa. I.D. No. 317370)
Laura A. Lange
(Pa. I.D. No. 310733)
McGuireWoods LLP
625 Liberty Avenue, Suite 2300
Pittsburgh, PA 15222
Telephone: (412) 667-6000
Telecopier: (412) 667-7975

App. 53
Counsel for Trustees of the
Thomas E. Proctor Heirs
Trust and the Margaret O.F.
Proctor Trust

App. 54
APPENDIX H
IN THE COURT OF COMMON PLEAS OF
LYCOMING COUNTY, PENNSYLVANIA
KETA GAS & OIL
COMPANY, a Pennsylvania
Corporation, formerly
KETA REALTY COMPANY,
Plaintiff,
v.
THOMAS E. PROCTOR,
et al.,
Defendants,
ANADARKO E&P
ONSHORE LLC,
SOUTHWESTERN
ENERGY PRODUCTION
COMPANY, and
INTERNATIONAL
DEVELOPMENT
CORPORATION,

NO. 571 of December
Term, 1950
CIVIL ACTION
Judge Eric R. Linhardt
THOMAS E. PROCTOR
TRUST’S AND
MARGARET O.F.
PROCTOR TRUST’S
CONSOLIDATED BRIEF
IN OPPOSITION TO
INTERVENING PLAINTIFFS’ MOTIONS FOR
SUMMARY JUDGMENT

Intervenors,
*

*

*

App. 55
Accordingly, because Thomas E. Proctor’s interest
was properly reported, the June 8, 1908 tax sale could
not convey the reserved Subsurface Estate.11

11

Because the evidence here demonstrates that Proctor interests were reported, to the extent this Court holds that the assessments and tax sales still encompassed the Proctor Subsurface
Estate, the deprivation of property would violate the Trusts’ constitutional rights to due process. See generally Mullane v. Central
Hanover Bank & Trust Co., 339 U.S. 306, 315 (1950). The holding
in Herder Spring was limited to the assessment and sale where
no reporting occurred and the owner of the severed estate was
unknown. Herder Spring Hunting Club v. Keller, 143 A.3d 358,
378 (2016) (basing its decision on “the difﬁculties of ascertaining
ownership information relating to unseated landowners”). Pursuant to the Act of March 30, 1897, P.L. 11, which was not discussed
in Herder Spring, the tax assessments and sale notices were required to list the owner of the unseated land effective January 1,
1898. Here, the County knew that the Proctor heirs owned the
subsurface estate, yet the assessments did not identify Proctor’s
estate as the owner of the property subject to assessment.
¶¶ 12.a-c.

App. 56
APPENDIX I
In the Superior Court of Pennsylvania –
Middle District
No. 1975 MDA 2018
KETA GAS & OIL COMPANY, a Pennsylvania corporation,
formerly KETA REALTY COMPANY,
v.
THOMAS E. PROCTOR, JAMES H. PROCTOR, THOMAS E.
PROCTOR, JR., ANNE PROCTOR RICE, EMILY PROCTOR
MANDELL, LYDIA W. THACHER, AUGUSTA PROCTOR, ELLEN
O. PROCTOR, SARAH JOSLIN, ABEL H. PROCTOR, and
MASSACHUSETTS GENERAL HOSPITAL, heirs, legatees
and devisees under the Will of Thomas E. Proctor, and
all persons claiming under or through any of the above,
and BRINKER HUNTING CLUB, a non-proﬁt corporation.
APPEAL OF: TRUSTEES OF THE
THOMAS E. PROCTOR HEIRS TRUST AND TRUSTEES
OF THE MARGARET O.F. PROCTOR TRUST

BRIEF OF APPELLANTS
Appeal from the Order of the Court of
Common Pleas of Lycoming County, Civil Division,
entered October 23, 2018, at No. 1950-571
*

*

*

App. 57
F. Permitting a Tax Sale to Divest the
Proctor Reservation After It Was Reported to County Officials Would Work
an Unconstitutional Deprivation of Due
Process.
As a ﬁnal observation, if this Court holds that the
assessments and tax sale still encompassed the Proctor Subsurface Estate, they would result in an unconstitutional deprivation of the Trusts’ property without
due process of law. After all, as summarized above, the
evidence here demonstrates that the Proctor Reservation was reported, and that Proctor’s representatives
were well-known to Lycoming County tax ofﬁcials. See
2385a-2396a, 2636a-2639a. The record further shows
that Proctor’s will was recorded in Lycoming County,
enabling tax authorities to identify and locate Proctor’s
heirs with minimal effort, even given the technical constraints of the era. 9a (112); see also 127a-149a. (Indeed, they would not even have had to leave the
courthouse.) Given those facts, a tax sale without any
effort at personal notice violates the Fourteenth
Amendment. See generally Mennonite Bd. of Missions
v. Adams, 462 U.S. 791 (1983); Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950).
Herder Spring does not alter this conclusion, because that decision was rendered on a record that did
not contain any evidence of reporting, or any evidence
about the burden that might have been involved in ascertaining the owners; therefore, the record there did
not support a ﬁnding that the owner of the severed
estate was known or reasonably knowable to tax

App. 58
authorities. Herder Spring, 143 A.3d at 378 (basing its
decision on “the difﬁculties of ascertaining ownership
information relating to unseated landowners”).
Further, the Act of March 30, 1897, P.L. 11, which
was not discussed in Herder Spring, required tax assessments and sale notices to list the owners of unseated land as of January 1, 1898. Here, the County
knew that the Proctor heirs owned the Subsurface Estate, yet the assessments did not identify Proctor’s estate as the owner of the property subject to
assessment. 2065a-2066a (¶¶ 12.a-c), 2640a-2643a.
*

*

*

App. 59
APPENDIX J
In the Supreme Court of Pennsylvania –
Middle District
No. ___ MAL 2020
TRUSTEES OF THE THOMAS E. PROCTOR HEIRS TRUST
and TRUSTEES OF THE MARGARET O.F. PROCTOR
TRUST, as successors-in-title to THOMAS E. PROCTOR,
JAMES H. PROCTOR, THOMAS E. PROCTOR, JR., ANNE
PROCTOR RICE, EMILY PROCTOR MANDELL, LYDIA W.
THACHER, AUGUSTA PROCTOR, ELLEN O. PROCTOR,
SARAH JOSLIN, ABEL H. PROCTOR, and MASSACHUSETTS
GENERAL HOSPITAL, heirs, legatees and devisees
under the Will of Thomas E. Proctor, and all persons
claiming under or through any of the above,
Petitioners,
v.
KETA GAS & OIL COMPANY, a Pennsylvania corporation,
formerly KETA REALTY COMPANY, TROUT RUN HUNTING
& FISHING CLUB, INC., as successor to BRINKER
HUNTING CLUB, a non-profit corporation, INTERNATIONAL
DEVELOPMENT CORPORATION, SWN PRODUCTION
COMPANY and ANADARKO E&P ONSHORE, LLC,
Respondents.
PETITION FOR ALLOWANCE OF APPEAL

App. 60
*

*

*

IV. Where the Landowner’s Identity Was Actually Known to Taxing Authorities, the Fourteenth Amendment Requires an Effort to
Provide Individualized Notice Before Property May Be Divested in a Tax Sale.
As shown above, Lycoming County officials actually knew that Proctor and his heirs claimed an interest in the subsurface estate associated with the
Premises and, because of prior dealings with the Proctor heirs, had the ability to locate the heirs or their
representatives. As a result, the Trusts contend, the
Fourteenth Amendment required some effort at individualized notice. Conversely, under those circumstances, constructive notice by publication alone
violated constitutional due process requirements. The
Superior Court, in rejecting the Trusts’ due process
argument, read too much into Herder Spring.
Herder Spring did not announce a bright-line rule
that constructive notice through publication for in rem
tax sales always comports with due process requirements. Rather, Herder Spring relied on Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950),
and Mennonite Board of Missions v. Adams, 462 U.S.
791 (1983), to hold that “a government entity is not ‘required to undertake extraordinary efforts’ in providing
notice” where – as in that case – the ownership of property is difﬁcult to ascertain. 143 A.3d 358, 378. Here,
however, no extraordinary efforts by the taxing ofﬁcials were required to identify interested owners.

App. 61
In fact, if Herder Spring is given the Superior
Court’s expansive reading, it is utterly irreconcilable
with Mullane and Mennonite, and sanctions an unconscionable violation of constitutional norms. In short,
because the Superior Court’s holding conﬂicts with
binding United States Supreme Court and Pennsylvania Supreme Court precedent and the underlying constitutional norms that both this Court and the U.S.
Supreme Court have consistently upheld, and because
this case is this Court’s ﬁrst opportunity to consider
due process notice requirements in the context of previously-reported subsurface rights, this Court should
grant review.
*

*

*

APPENDIX K
Exhibit 1, Appendix of Evidence in opposition
to motions for summary judgment
Gamble, et al. v. Central Pennsylvania Lumber
Company, et al., Paper Book of Appellants
“Gamble Paper Book”

App. 62
===========================================================================================
IN THE

Supreme Court of Pennsylvania
FOR THE EASTERN DISTRICT.
-----------------------------------------------------------------------

No. 345 January Term, 1907
-----------------------------------------------------------------------

JEFFERSON A. GAMBLE AND W. H. GREEN
VS.
CENTRAL PENNSYLVANIA LUMBER
COMPANY AND THE ELK TANNING COMPANY,
Appellants.
-----------------------------------------------------------------------

APPEAL of Central Pennsylvania Lumber Company and the Elk Tanning Company from the
Judgment of the Court of Common Pleas of
Lycoming County, entered to No. 450 June
Term, 1905.
-----------------------------------------------------------------------

PAPER BOOK OF APPELLANTS.
-----------------------------------------------------------------------

C. H. McCAULEY,
THOMAS H. MURRAY,
SETH T. McCORMICK.
Attorneys for Appellants.
===========================================================================================
*

*

*

App. 63
APPENDIX
-----------------------------------------------------------------------

TESTIMONY.
-----------------------------------------------------------------------

JEFFERSON A. GAMBLE
and W. H. GREEN,
vs.
CENTRAL PENNSYLVANIA
LUMBER COMPANY and
THE ELK TANNING COMPANY,

In the Court of
Common Pleas of
Lycoming County.
No. 450, June Term,
1905.
Ejectment.

-----------------------------------------------------------------------

Before Honorable Wm. W. Hart, President Judge.
Thursday, Friday and Saturday. May 9, 10 and 11,
1907.
-----------------------------------------------------------------------

APPEARANCES:
For Plaintiffs—H. W. Whitehead, Esq.,
N. M. Edwards, Esq.,
A. G. Miller, Esq.,
Candor & Munson.
For Defendants—C. H. McCauley, Esq.,
Thomas H. Murray, Esq.,
Seth T. McCormick, Esq.
-----------------------------------------------------------------------

App. 64
Testimony, Exceptions taken during the trial to the rejection or admission thereof. Charge, Points and
Answer of the Court thereto, Exceptions to Charge
and Certiﬁcates of Judge and Reporter.
-----------------------------------------------------------------------

*

*

*

Court adjourned to 9 a.m., Friday, April 10, 1906.
Court met pursuant to adjournment, whereupon—
ASHER D. UPDEGRAFF, called on behalf of the
plaintiffs, sworn and examined in chief.
*

*

*

Q.—Do you know S. A. Rote? A.—Yes, sir: I have
known Mr. Rote for some time.
Q.—Did you know him in 1894? A.—I met him in
the spring of 1894, yes, sir.
Q.—What was his business then? A.—He was tax
agent for the Elk Tanning Company and probably the
Union, I am not sure about that. He paid some of the
taxes for the Union too, but whether he was agent for
them I am not sure.
Q.—Did you have business with him while you were
in the Treasurer’s ofﬁce, during your brother’s term
during which you were Deputy Treasurer? A.—I did.
Q.—What kind of business? A.—He paid me the
taxes for the Elk Tanning Company and part of the
taxes for the Union Tanning Company.

App. 65
*

*

*

Q.—Do you know B. S. Bently? A.—Yes, sir.
Q.—Did you furnish B. S. Bently, some time previous to February 28th, 1894, a statement of the taxes on
warrant 5666? A.—I might have done that if he asked
me to. I wouldn’t say that I did not.
Q.—Did you furnish a paper to B. S. Bently, at his
request, showing the taxes for 1893 on what is commonly known as the Proctor lands? A.—If he asked me
for it and told me what he wanted, I no doubt did.
Q.—I show you a paper marked Defendants’ Exhibit No. 1, May 10, 1907, G. S. B., page “A” and page
“B,” and ask you whether you furnished that paper,
consisting of two sheets, to B. S. Bently. A.—It is in my
writing; whether I furnished it to Mr. Bently or not I
couldn’t say.
Q.—Is it or not a statement of the taxes for 1893
on the Proctor lands. A.—Yes, sir. Thomas E. Proctor
owned it.
Q.—Do you swear you didn’t furnish that to Mr.
Bently? A.—Oh, no, I wouldn’t swear to anything of the
kind. I certainly made thereon. It is in my handwriting.
Q.—You don’t remember to whom you furnished
it? A.—No; I furnished one like this a copy same as this
to Mr. Rote; that is, I offered it to him. I don’t know
whether he took it or not. He often had smaller sheets,
each township separate and he had his receipt made
out on them. Didn’t take a large sheet. I know once or

App. 66
twice he did not, I don’t know whether he always did
or not.
*

*

*

Counsel for defendants offer in evidence deed
Thomas E. Proctor and wife to the Elk Tanning Company, dated the 2nd day of October, 1894, and recorded
the 23rd day of January, 1895, in the Recorder’s Ofﬁce
of Lycoming County, in Deed Book 6 “T” 144, page 398,
etc.; also recorded the 6th day of February, A. D. 1895,
in the Recorder’s Ofﬁce of Sullivan County, in Deed
Book, Vol. 24, page 72, etc.
The deed above offered, conveying several tracts of
land in Lewis Township, among them 5666, read in evidence as warrant 5666 on behalf of the defendants as
follows.
THIS INDENTURE, made the second day of October in the year of our Lord one thousand eight hundred
and ninety-four, BETWEEN Thomas E. Proctor, of the
City of Boston, in the State of Massachusetts, and
Emma H., his wife, party of the ﬁrst part; and the Elk
Tanning Company, a corporation organized and existing under the laws of the State of Pennsylvania, party
of the second part, WITNESSETH that the said
Thomas E. Proctor and Emma H., his wife, party of the
ﬁrst part as aforesaid, for and in consideration of the
sum of One Dollar lawful money of the United States
of America unto them well and truly paid by the said
Elk Tanning Company, party of the second part as
aforesaid, at and before the sealing and delivery
hereof, the receipt whereof is hereby acknowledged as

App. 67
well as for divers other good and valuable consideration unto the said party of the ﬁrst part moving, have
granted, bargained and sold, released and conﬁrmed
and by these presents do grant, bargain and sell, release and conﬁrm unto the said Elk Tanning Company,
its successors and assigns, all the hereinafter mentioned tracts, pieces or parcels of land, designated,
numbered and described as follows, to wit: (inter alia)
NUMBER ELEVEN: All those certain tracts or
warrants of land situate, lying and being in the Township of Lewis, in the County of Lycoming, and State of
Pennsylvania, known designated and described as follows, to wit:
*

*

*

One tract in the warrantee name of James Strawbridge,
number ﬁve thousand six hundred, and sixty-seven
(5667). Containing eleven hundred acres, more or less.
*

*

*

One tract situate in the Township of Cogan House,
County and State aforesaid, in the warrantee name of
James Strawbridge, number ﬁve thousand six hundred
and ﬁfty-ﬁve (5655). Containing ten hundred and
ninety-eight acres more or less.
*

*

*

The said Thomas E. Proctor, however, hereby expressly reserves from this grant, to himself, his heirs
and assigns, all the natural gas, coal, coal oil, petroleum, marble and all minerals of every kind and character in, upon or under the said lands hereinbefore

App. 68
mentioned and described, and hereby conveyed, and
every part thereof, or which may at any time hereafter
be discovered in, upon or under said lands, or any lands
thereof, with the right to enter upon said lands for purpose of exploration, and for the taking away the said
natural gas, coal, coal oil, petroleum, marble or other
minerals hereby reserved, and to erect such structures,
ways, buildings, railroads and shafts thereon, both up
and down, to cut and ﬁll the surface, wherever needed
for railways for such purposes, and to dig channels and
ditches for waste water thereon, and to do these and
such other things thereon, in such manner as may be
necessary to successfully mine and take away the said
natural gas, coal, coal oil, petroleum, marble and other
minerals or any of them, from the said lands aforesaid.
With the right to the said Thomas E. Proctor, his heirs
and assigns, to use such timber as may be necessary
for the purposes of mining or taking away the natural
gas, coal, coal oil, petroleum, marble and other minerals, as above reserved, the said Thomas E. Proctor, his
heirs and assigns, to pay for the timber so used as
aforesaid, to the said party of the ﬁrst part hereto, their
successors or assigns, the value of any such timber, so
taken for the purposes aforesaid, as standing timber,
at the time the same is taken and used as aforesaid.
*

*

*

TO HAVE AND TO HOLD the said several hereinbefore mentioned and described tracts, pieces or parcels of land, here-[illegible]ditaments and premises
hereby granted or mentioned and intended so to be
with the appurtenances unto the said Elk Tanning

App. 69
Company, party of the second part, its successors and
assigns, to and for the only proper use and behoof of
the said Elk Tanning Company, party of the second
part, its successors and assigns forever. Excepting and
reserving always nevertheless from this grant as is
hereinbefore excepted and reserved, and subject to all
the conditions as hereinbefore mentioned and contained.
*

*

*

IN WITNESS WHEREOF the said parties have
hereunto set their hands and seals. Dated the day and
year above written.
THOMAS E. PROCTOR, (Seal)
EMMA H. PROCTOR,
(Seal)
Sealed and delivered in
the presence of us.
The words “by, from or under” and the
words “or any of them” in the covenant of warranty erased before execution.
WILLARD DALRYMPLE.
State of Massachusetts,

} ss.

County of Suffolk.

On the twenty-third day of October, Anno Domini
1894; before me, the subscriber; a Notary Public in and
for said county, came the above named Thomas E. Proctor
and Emma H. Proctor, his wife, and each duly acknowledged the foregoing Indenture to be their act and deed,

App. 70
and desired the same might be recorded as such. And
the said Emma H. Proctor, being of full age and separate and apart from her said husband be me examined
and the full contents of the said Indenture being by me
made known to her, declared upon such separate examination that she did voluntarily and of her own free
will and accord seal and as her act and deed deliver the
said Indenture without any coercion or compulsion of
her said husband.
Witness my hand and ofﬁcial seal,
(Seal)

WILLARD DALRYMPLE.
Notary Public.

Counsel for defendants offer in evidence deed Elk
Tanning Company to the Central Pennsylvania Lumber Company dated the twenty-ﬁfth day of May, in the
year of our Lord, one thousand nine hundred and
three, and recorded the 12th day of June, A. D. 1903, in
the Recorder’s Ofﬁce of Lycoming County, in Deed Book
183, at page 328.
The deed above offered conveying several tracts of
land in Lewis Township, among them 5666, read in evidence as to warrant 5666, in behalf of the defendants
as follows:
THIS INDENTURE, made the twenty-ﬁfth day of
May, in the year of our Lord one thousand nine hundred and three (1903), between the ELK TANNING
COMPANY, a corporation organized and existing under the laws of the State of SYLVANIA LUMBER
COMPANY, a corporation organized and existing

App. 71
under the laws of the State of Pennsylvania, of the second part:
*

*

*

NOW, THEREFORE THIS INDENTURE WITNESSETH: That the said ELK TANNING COMPANY
for and in consideration of the sum of One Dollar (and
divers other good and valuable considerations), lawful
money of the United States of America to the Treasurer of the Elk Tanning Company in hand paid, at and
before the execution and delivery of these presents, the
receipt whereof is hereby acknowledged, hath granted,
bargained, sold, aliened, released, conveyed and conﬁrmed, and by these presents doth grant, bargain, sell,
alien, release, convey and conﬁrm unto the said Central Pennsylvania Lumber Company, its successors
and assigns, all those certain pieces, parcels and tracts
of land situate, lying and being in the County of becoming and State of Pennsylvania, as follows:
FIFTH:—Warrants and parts of warrants as follows—(inter alia) 5666, 400 acres; 5666, 5667 and
5668, 2,000 acres; description concluding as follows:
Containing ﬁfty-one thousand, two hundred and
thirty-six (51,236) acres of land, more or less, situate
in Cascade, Cogan House, Gamble, Jackson, Lewis,
McIntyre, McNett and Plunketts Creek Townships,
and being part of the same land conveyed and more
particularly mentioned and described in deed from T.
E. Proctor and wife to the Elk Tanning Company, dated
October 2nd, 1894, and recorded in Lycoming County
in Deed Book 6-T, No. 144, page 398, &c., on January

App. 72
23rd, 1895; and by deed from William McLean and
Henry Pleasants, executors and trustees of the estate
of Howard Spencer, deceased, to the Elk Tanning Company, dated October 23rd, 1899, and recorded in Lycoming County, in Deed Book No. 163, page 303, on
November 3rd, 1899.
*

*

*

This deed is made, executed, delivered and accepted for the purpose of vesting in the party of the
second part, its successors and assigns, all the right,
title, interest and estate but no greater than is now
held and owned by the Elk Tanning Company, of, in
and to the lands hereinbefore mentioned, and the
timber, trees and wood theeron, SUBJECT to all the
exceptions, reservations, covenants, stipulations,
agreements and conditions contained in the several
deeds hereinbefore recited, and SUBJECT ALSO to all
the exceptions, reservations, covenants, stipulations,
agreements and conditions hereinbefore stated.
*

*

*

TO HAVE AND TO HOLD the said premises, with
all and singular the appurtenances unto the said party
of the second part, its successors and assigns, to and
for the only proper use and behoof of the said party of
the second part, its successors and assigns forever, subject to the exceptions and reservations hereinbefore
mentioned.
*

*

*

App. 73
IN TESTIMONY WHEREOF the proper ofﬁcers of
the said Elk Tanning Company have hereunto set their
hands and afﬁxed the corporate seal of the said Elk
Tanning Company the day and year ﬁrst above written,
ELK TANNING COMPANY,
By

G. W. CHILDS,
President.

Attest:—

*

*

M. K. WILLIAMS,
Secretary.
(Corporate Seal)
*

S. A. ROTE, called on behalf of the defendants,
sworn and examined in chief.
By Mr. McCormick:
Q.—Mr. Rote, where do you live? A.—Ridgway,
Pennsylvania.
Q.—What is your occupation? A.—Tax agent for
the Elk Tanning Company.
Q.—How long have you been tax agent for the Elk
Tanning Company? A.—Since the fall of 1893.
Q.—What was you occupation previous to that
time? A.—Book-keeper.
Q.—When was the Elk Tanning Company organized, if you know? A.—In May, 1893.

App. 74
Q.—What were your duties in the spring of 1984
as tax agent for the Elk Tanning Company? A.—To pay
the taxes of the Elk Tanning Company upon their unseated lands.
Q.—Did the Elk Tanning Company purchase
lands from Thomas E. Proctor? A.—They did.
Q.—Do you know where Mr. Proctor lived? A.—In
Boston, Mass.
Q.—Do you know who were the attorneys for
Thomas E. Proctor in the spring of 1894? A.—I understood that Mr. Bently was.
Q.—(By Mr. Edwards) If you don’t know, say so.
A.—Well, Mr. Bently; I was directed to Mr. Bently.
Q.—(By Mr. McCormick) Mr. Bently was also acting as counsel for the Elk Tanning Company? A.—Yes,
sir.
Q.—You know that fact? A.—I know it.
Q.—Did you, in the spring of 1894, have information as to the tracts and acreage of lands in Lycoming County that had been purchased by the Elk
Tanning Company from Thomas E. Proctor? A.—I did
not.
Q.—To whom did you go for that information? A.—
To Mr. Bently.
Q.—What did you do when you went to Mr. Bently?
A.—I asked him for a statement of the land that the

App. 75
Elk Tanning Company would be expected to pay taxes
upon.
Q.—The Proctor lands? A.—The Proctor lands;
yes, sir.
*

*

*

Q.—For what purpose did you call on Mr. Bently?
A.—To know what lands we should be subject to pay
taxes upon.
Q.—With reference only to the Thomas E. Proctor?
A.—To the Thomas E. Proctor.
Q.—Mr. Bently was employed specially, was he
not, by the Elk Tanning Company, only in the Thomas
E. Proctor matter? A.—Yes, sir.
*

*

*

Q.—Did you know he was attorney for Thomas E.
Proctor? A.—I did.
Q.—How did you know that? A.—Because Mr.
Proctor wrote me that he was.
Q.—How did you know that Mr. Bently was employed specially only in the Thomas E. Proctor matter?
A.—Because Mr. Proctor, as I stated, advised me that
Mr. Bently was his attorney and any information that
I wanted I should get from Mr. Bently.
Q.—(By Mr. McCormick) Why did you go to Mr.
Bently? A.—To get information as to the payment of
taxes upon the Proctor land.

App. 76
Q.—What do you mean by “information as to the
payment of taxes,” the amount of acreage? A.—All the
information that I wanted.
Q.—What did you get from him? A.—That statement.
Witness shown paper marked Defendants’ Exhibit
1, being the paper identiﬁed by Asher D. Updegraff,
when upon the witness stand:
Q.—Is that what you got from Mr. Bently? A.—Yes,
sir.
Q.—And what did you do with it? A.—I took it to
Ridgway and made my receipts for taxes, got a draft
and came to Williamsport and paid those taxes.
Q.—That is the receipt that is contained in the
book? A.—Yes, sir.
Q.—Mr. Updegraff testiﬁed upon the stand this
morning that his recollection was that you examined
the assessment the duplicate book, or some book showing the assessments, in his ofﬁce, before the payment
of the taxes on February 28th, 1894, did you there examine the assessment alleged to be the assessment of
the James Strawbridge warrant, 5666? A.—I don’t recollect that I examined any book. When I came with my
statement of taxes, with my receipts, I sat on one side
of the table and Mr. Updegraff sat on the other with his
book. I read from my statement the tracts, acres, and
amounts of taxes that I was prepared to pay. He made
a notation as to the amount. We ﬁgured up together the
amount and I handed him the draft.

App. 77
Q.—What did you read from? A.—The tax book of
the Elk Tanning Company.
Q.—You mean the receipt book? A.—Yes, sir; the
Elk Tanning Company’s receipt book.
Q.—You refer to the book which has been offered
in evidence called “Tax Book, 1893. Elk Tanning Company?” A.—Yes, sir.
Q.—Did you have this book there at the time in
1894? A.—Yes, sir.
*

*

*

Q.—When you came to pay the taxes on the Elk
Tanning Company’s land in Lycoming County, unseated land, for the year 1893, you came to the Treasurer’s ofﬁce in this Court House, did you not? A.—Yes,
sir.
Q.—Who did you ﬁnd in there to do business with?
A.—Asher Updegraff. I found his brother also.
Q.—As I understand you you brought this book
with you? A.—I did.
*

*

*

Q.—Now when you came to the Treasurer’s ofﬁce
on this date, do you recollect what date it was? A.—I
do not. We were two or three days doing this work.
Q.—You were several days in the ofﬁce? A.—Three
days as I recall it.

App. 78
Q.—You came in, as I understand you, with this
book? A.—Yes, sir.
Q.—With the warrant, the acreage, the name of
the warrantee, the location as to townships and the unseated land of the Elk Tanning Company upon which
you wanted to pay taxes? A.—Yes, sir.
Q.—That statement was made up as this book
shows? A.—Yes, sir.
Q.—For instance, 5666, James Strawbridge warrant, 700 acres, as it is entered on page 217 of the book
you have identiﬁed as Tax Book of the Elk Tanning
Company, was entered there just as it is now? A.—Yes,
sir; there never have been any changes.
Q.—When you came to see Mr. Updegraff on that
occasion? A.—Yes, sir.
Q.—Now you told Mr. Updegraff when you met
him that you wished to pay the taxes on the unseated
land for the Elk Tanning Company? A.—I did.
Q.—He got down his assessment list and you
opened up your book? A.—Yes, sir.
Q.—He read from the assessment of unseated land
in his ofﬁce and you read from your book? A.—Yes, sir.
Q.—Did you compare the record at that time? A.—
You mean for comparison that I looked at his and that
he looked at this? No, sir, I read from my book and he
answered that it was correct from him. I didn’t examine his book at that time.

App. 79
*

*

*

Q.—Now, I think Mr. Edwards and you do not understand each other; you have stated that when you
went there to pay these taxes to the county that Mr.
Updegraff was on one side of the table with a book and
that you were on the other side with your receipt book;
is it not a fact that that book was this statement book
and you read and he wrote as you read in his statement
book?
Counsel for plaintiffs object to the question as
leading.
Q.—What is the fact, that is all I want; do you
know what book Mr. Updegraff did have? A.—My recollection is the book with the red and black writing in.
I would positively say that he didn’t have a statement
book.
*

*

*

B. S. BENTLEY, called on behalf of the defendants,
sworn and examined in chief.
By Mr. McCormick:
Q.—You are a practicing attorney at this bar? A.—
I am.
Q.—And have been for how long? A.—About fortyone years.
Q.—Did you know Thomas E. Proctor in his lifetime? A.—Very well indeed.

App. 80
Q.—Where did he live? A.—In the City of Boston,
Mass.
Q.—Were you his counsel? A.—I was, for twentyﬁve years prior to his death.
Q.—Were you his counsel in the years 1893 and
1894? A.—I was.
Q.—He was engaged in the tanning business, was
he not? A.—That was his chief business.
Q.—Do you know the fact that in the year 1893
Thomas E. Proctor sold his unseated land in Lycoming
County to the Elk Tanning Company by article of
agreement? A.—I do know that fact.
*

*

*

By Witness: I’ll add to that answer that I knew
it at that time in the spring of 1893.
Q.—Did you or not in January and February, 1894,
represent the Elk Tanning Company as their counsel?
A.—So far as the lands of Mr. Proctor were concerned,
I did.
Q.—Do you know S. A. Rote, tax agent of the Elk
Tanning Company? A.—I know him.
Q.—Did you have any conversation with S. A. Rote
in December, 1893, or in January or February, 1894, in
regard to obtaining a statement of the taxes upon the
Proctor lands for the year 1893? A.—I met Mr. Rote, my
recollection is, towards the latter part of January, 1894,

App. 81
had a conversation with him in reference to the taxes
upon these lands.
Q.—Did he or not at that time request you to obtain a statement of the taxes upon the unseated lands,
under contract to be sold by Proctor to the Elk Tanning
Company?
*

*

*

Q.—Now you may answer the question? A.—My
recollection is that the latter part of December, 1893,
or the fore part of January, 1894. I received a request
from Mr. McCauley, General Solicitor of the Elk Tanning Company, for a statement of taxes. Simply a request that I prepare such a statement.
Counsel for plaintiffs objecting to what took place
between the witness and Mr. McCauley, object to this
part of his answer.
Q.—Now you may ﬁnish your answer, Mr. Bently?
A.—Mr. Rote did call upon me, I should say somewhere
from the 20th to the 23rd of January, 1894, for this
statement, which I desire to explain I had received already, in response to my request.
Q.—Do you know Asher Updegraff, who was Deputy Treasurer of Lycoming County in the year 1894?
A.—I do.
Q.—Did you make a request upon him for a statement of the taxes against the Thomas E. Proctor lands
for the year 1893? A.—I did.

App. 82
Q.—Did he furnish you such a statement? A.—He
did.
Witness shown Defendants’ Exhibit No. 1, May 10,
1907, G. S. B., page A and page B.
Q.—Is that the statement that Mr. Updegraff furnished you? A.—To the best of my knowledge this is
the statement furnished to me by Mr. Updegraff as
Deputy Treasurer.
Q.—What did you do with that statement? A.—I
gave that statement that I received from the Treasurer
to Mr. Rote somewhere from the 20th to the 23rd of
January, 1894 when he called upon me for it.
Cross-examined.
By Mr. Edwards:
Q.—Mr. Bently, when did you get this statement?
A.—I can’t give the date, but it was the forepart of January, 1894.
Q.—Did you not get that statement during the
term of John Heilman, as County Treasurer, or just
about the end of his term? A.—No, sir; I think not.
I think I received that from Mr. Updegraff. Mr.
Updegraff ’s term, if I remember right, commenced the
ﬁrst Monday of January, 1894.
Q.—Which Updegraff ? A.—S. G. was the Treasurer and his brother, who was on the stand, was his
deputy. My business was all with the deputy, who attended to the business of the ofﬁce.

App. 83
*

*

*

Q.—When you went there for the statement, what
did you ask him for? A.—I asked him for a statement
of the taxes for 1893 upon the lands of Thomas E.
Proctor.
*

*

*

Q.—Did you give him any indication of what lands
you represented besides the Proctor lands—did you go
over the record with him in any way? A.—I did not, not
at all.
*

*

*

Q.—You say you had been attorney for Proctor for
twenty-ﬁve years? A.—I had.
Q.—And looked after his unseated lands in this
county? A.—Yes, sir.
Q.—Do you mean to say that before this case you
never looked at the assessment record in this county?
T.—Oh, I do not say that. You asked me in particular
as to warrant 5666.
Q.—No, I didn’t. I asked you if you ever looked at
the assessment of unseated lands? A.—I have many,
many times looked at the assessment of unseated
lands.
*

*

*

Q.—Did you mention any warrant or tract that
you wanted to pay taxes on? A.—Now, Mr. Edwards, my
recollection is simply this, as I have stated, that I went

App. 84
there and asked him for a statement of the taxes for
1893 against the unseated lands of Thomas E. Proctor.
Q.—That is all you did? A.—Well, I can’t recall
anything else but that and in response to that he did
give me this statement.
Q.—That is all you did? A.—I might have told him
the townships, I don’t say that I did.
Q.—May have told him some of the tracts, too,
might you not? A.—I may have done so and I might not,
I don’t recollect it now; but my object in going there,
and sole purpose, was to get a statement of the taxes.
Q.—I don’t care what your purpose was, I want you
to state what you did? A.—Well, I know that I asked
him for the taxes against Mr. Proctor’s land, and in response to it he gave me that statement.
*

*

*

App. 85
DEFT’S EX. No. 1--Page A.
May 10, 1907.—G. S.B.
No.

Quantity
407 ¼
407
407 ¾
407 ¾
407 ¼
407
Should be
407
Rowland Perry
1621
990
5655
1088
5665
1000
5665
100
5656
1100
Should be
50
Mary Bright
150
4785
4786
4787
4788
4789
5653
5654

Warrantee
Gratz, Michael
Miles, Samuel
Singer, Abraham
Smith, Robert
Wester, William
Reynolds, Jas.
Wells, William

Owner
Thos. E. Proctor
"
"
"
"
"
"
"
"
Thos. E. Proctor
"
"

Township
McNett
"
"
"
"
Cascade
"

Hewes & Fisher
Strawbridge, Jas.
"
"
"
"
"
"
Rustin, Mary
Seated

Proctor, Thos. E.
"
"
"
"
"
"
"
"
Proctor, Thos. E.

Cogan House
"
"
"
"
"
"
"
"
Gamble

136
Miller & Murray
334
"
"
"
"
363 ½
672
"
"
332
"
"
250
Strawbridge, Jas.
1098
"
"

Proctor, Thos. E.
"
"
"
"
"
"
"
"
"
"
"
"

Jackson
"
"
"
"
"
"

Proctor, Thos. E.
"
"
"
"
"
"
"
"
"
"

Lewis
"
"
"
"
"

409
287
384
428
186
206

Barron, John Jr.
Rustin, Mary
Rustin, Mary, Jr.
Rustin, Charlotte
Straub, Robert
Straub, Robert

COUNTY
1893
189x
$ C.
$ C.
10.19
10.19
20.39
20.39
20.39
10.20
8.16

ROAD
1893
186x
$ C.
$ C.
30.57
30.57
61.17
61.17
61.17
30.60
24.48

SCHOOL
1893
189x
$ C.
$ C.
16.27
16.27
32.61
32.61
32.61
20.40
16.31

39.60
32.64
30.00
3.00
33.00
25

79.20
65.28
60.00
6.00
66.00
75

39.60
32.64
30.00
3.00
16.50
40

6.80
10.02
18.18
33.60
16.60
1.24
54.90

10.88
16.03
29.08
53.76
26.56
1.98
87.84

14.62
22.04
39.98
73.92
36.52
2.72
120.75

2.05
1.43
1.92
2.14
93
2.06
18.13

4.09
2.87
3.84
4.28
1.86
4.12
36.25

3.20
2.30
3.07
3.42
1.48
3.20
29.00

POOR
1893
189x
$ C.
$ C.
4.07
4.07
8.15
8.15
8.15
4.07
3.26
19.80
16.32
15.00
1.50
16.50
15

2.45
1.72
2.32
2.56
1.10
2.47
21.75

App. 86
5661
5666
5667
5668
5751
5753

725
700
1100
1100
1100
719

Strawbridge, Jas.
"
"
"
"
"
"
"
"
"
"

"
"
"
"
"
"

"
"
"
"
"
"

"
"
"
"
"
"

7.00
11.00
27.50
16.50
10.70

14.00
22.00
55.00
33.00
21.57

11.20
17.60
44.00
26.40
17.25

8.40
13.20
33.00
19.80
12.57

481.19

1005.97

778.49

230.53

DEFT’S EX. No. 1, Etc.--Page B.
G. S.B.
No.
419
437
414
409
3
434
425
436

210
417
418
427
428
436

Quantity
289
407 ¾
407 ¼
407 ¾
434 ¼
347
407 ¼
407 ¾
407 ¼
333
218
262
407
407
407 ¼
407 ¾
407 ¼

Warrantee
Chancellor, William
Gratz, Michael
Hepburn, James
Hubby, Bernard
Johnson, Francis
Levi, Aaron
Miles, Samuel Jr.,
Miles, James
Morgan, Jacob
Smith, John
Singer, John
Singer, John
Singer, Abraham
Price, John
Stewart, Walter
Stewart, William
Shaw, Robert

Owner
Proctor, Thos. E.
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"

Township
McIntyre
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"

COUNTY
1893
189 x
$ Cts. $ Cts.
1.45
20.35
20.39
16.30
10.87
1.74
20.39
16.31
20.39
1.64
5.45
10.14
20.39
20.39
20.39
20.39
20.39

ROAD
1893
189 x
$ Cts. $ Cts.
1.73
24.42
24.46
19.56
13.05
2.08
24.46
19.57
24.46
1.96
6.54
12.16
24.46
24.46
24.46
24.46
24.46

SCHOOL
1893
189 x
$ Cts. $ Cts.
1.45
20.35
20.39
16.30
10.87
1.74
20.39
16.31
20.39
1.64
5.45
10.14
20.39
20.39
20.39
20.39
20.39

POOR
1894
189 x
$ Cts. $ Cts.
58
8.14
8.15
6.52
4.35
69
8.15
6.52
8.15
65
2.18
4.05
8.15
8.15
8.15
8.15
8.15

App. 87
4785
4789
5650
5651
5653
5658
5660
5652
18

480
401
970
1098
850
1098
851
1098
313

Strawbridge, James
Miller & Murray
"
"
Strawbridge, James
"
"
"
"
"
"
"
"
"
"
Dunlap, John

In Lewis Township
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"
"

"
"
"
"
"
"
"
"
"

County, 431.62; Road, 517.82; School, 431.62; Poor, 172.57; Total,
Brought forward,

24.00
20.05
24.25
38.43
4.25
10.98
4.26
54.90
3.13
431.62
1553.63
2496.18
4049.81

28.80
24.06
29.10
46.10
5.10
13.17
5.10
65.88
3.76
517.82

24.00
20.05
24.25
38.43
4.25
10.98
4.26
54.90
3.13
431.62

9.69
8.02
9.70
15.36
1.70
4.40
1.70
21.96
1.25
172.57

APPENDIX L
Exhibit 2, Appendix of Evidence in opposition
to motions for summary judgment
1894 Lycoming County Assessment Book

App. 88

APPENDIX M
Exhibit 10, Appendix of Evidence in opposition
to motions for summary judgment
1905 McIntyre Assessments

App. 89

App. 90

App. 91

APPENDIX N
Exhibit 11, Appendix of Evidence in opposition
to motions for summary judgment
1907 McIntyre Assessments

App. 92

App. 93

App. 94

APPENDIX O
Exhibit 23, Appendix of Evidence in opposition
to motions for summary judgment
Dalrymple letters to Lycoming County Treasurer

App. 95

App. 96

App. 97

App. 98
APPENDIX P
KETA GAS & OIL COMPANY, : IN THE COURT OF
COMMON PLEAS
a Pennsylvania Corporation, :
formerly Keta Realty Company, :
OF LYCOMING
:
vs.
COUNTY
:
THOMAS E. PROCTOR,
:
defendant, and JAMES H. :
PROCTOR, THOMAS E.
:
PROCTOR, JR., ANNE
:
PROCTOR RICE, EMILY
:
PROCTOR MANDELL,
:
LYDIA W. THACHER,
:
AUGUSTA PROCTOR,
:
ELLEN O. PROCTOR,
:
SARAH JOSLIN, ABEL H.
:
PROCTOR, and
:
MASSACHUSETTS
:
GENERAL HOSPITAL,
heirs, legatees and devisees :
under the will of Thomas E. :
Proctor, defendants, and all :
persons claiming under or :
:
through any of the above,
and BRINKER HUNTING :
:
CLUB, a non-proﬁt
corporation, defendant.
: No. 571, Dec. Term,1950
COMPLAINT
ACTION TO QUIET TITLE
AND NOW, to wit, this 3rd day of December, 1950,
comes the plaintiff, Keta Gas & Oil Company, by its
attorneys, Candor, Youngman & Gibson, and ﬁles this

App. 99
Action to Quiet Title against Thomas E. Proctor, defendant, and James H. Proctor, Thomas E. Proctor, Jr.,
Anne Proctor Rice, Emily Proctor Mandell, Lydia W.
Thacher, Augusta Proctor, Ellen O. Proctor, Sarah
Joslin, Abel H. Proctor and Massachusetts General
Hospital, heirs, legatees and devisees under the Will of
Thomas E. Proctor, and all persons claiming under or
through any of the above, and Brinker Hunting Club,
defendants, upon a cause of action whereof the following is a statement:
*

*

*

(2) Upon information, the plaintiff believes that
Thomas E. Proctor, one of the defendants, died prior to
September 17, 1895, a resident of Boston, Massachusetts, an exempliﬁed copy of his last Will and Testament having been duly recorded September 17, 1895
and remains of record in the ofﬁce of the Register of
Wills in Lycoming County, Pennsylvania, in Will Book
8, page 253, wherein James H. Proctor, Thomas E.
Proctor, Jr., Anne Proctor Rice, Emily Proctor Mandell,
Lydia W. Thacher, Augusta Proctor, Ellen O. Proctor,
Sarah Joslin, Abel H. Proctor, and Massachusetts General Hospital, defendants, are heirs, legatees and devisees in said Will.
*

*

*

(4) That the Keta Gas & Oil Company acquired
title to the above described premises through the following chain of title:
a. By deed signed the 2nd day of October,
1894, recorded in Lycoming County Deed

App. 100
Book 144, at page 398, Thomas E. Proctor
et ux conveyed, inter alia, to Elk Tanning
Company, James Strawbridge Warrant 5665
containing 1100 acres, more or less, situate in
Cogan House Township, and James Strawbridge Warrant 5667 containing 1100 acres,
more or less, situate in Lewis Township, Lycoming County, Pa., which deed contains
an exception and reservation unto the said
Thomas E. Proctor, his heirs and assigns, of
all the natural gas, coal, coal oil, petroleum,
marble and all minerals of any kind or character in, upon, or under the said lands.
b. By deed dated the 25th day of May, 1903,
recorded in Lycoming County Deed Book 183
at page 328, the said Elk Tanning Company
conveyed the said James Strawbridge Warrant 5665 containing 1100 acres, more or less,
and the said James Strawbridge Warrant
5667 containing 1100 acres, more or less, to
the Central Pennsylvania Lumber Company,
subject to all the exceptions, reservations, covenants, stipulations, agreements and conditions contained in the previous deed.
c. On the 8th day of June, 1908, Lyman Myers, Treasurer of Lycoming County, sold
James Strawbridge Warrant 5665 containing 948 acres in Cogan House Township, and
James Strawbridge Warrant 5667 containing 1098 acres in Lewis Township to Calvin
McCauley for non-payment of taxes, which
deeds and sales are recorded in Treasurer’s
Book #2, page 206, and acknowledge in Sheriff ’s Deed Book K., page 264.

App. 101
d. On the 6th day of December, 1910, Calvin
McCauley et ux by quitclaim deed conveyed
all of his right, title and interest in the aforesaid Warrants #5665 and #5667 to Central
Pennsylvania Lumber Company, said deed being recorded in Lycoming County Deed Book
209, at page 34.
*

*

*

